1a
United States Court of Appeals, Fourth Circuit.
Patrick BAEHR; Christine Baehr, Plaintiffs–
Appellants,
v.
The CREIG NORTHROP TEAM, P.C.; Creighton
Edward Northrop, III; Lindell C. Eagan; Lakeview
Title Company, Inc., Defendants–Appellees,
and
Carla Northrop; Long & Foster Real Estate, Inc.,
Defendants.
No. 19-1024
Argued: January 29, 2020 Decided: March 13, 2020
Appeal from the United States District Court for the
District of Maryland, at Baltimore. Richard D. Bennett,
District Judge. (1:13-cv-00933-RDB)
Attorneys and Law Firms
ARGUED: Gregory T. Lawrence, CONTI FENN &
LAWRENCE LLC, Baltimore, Maryland, for
Appellants. Jay
Norman
Varon,
FOLEY
&
LARDNER LLP, Washington, D.C., for Appellees. ON
BRIEF: Michael J. Silvestri, CONTI FENN &
LAWRENCE LLC, Baltimore, Maryland, for
Appellants. Jennifer M. Keas, FOLEY & LARDNER
LLP, Washington, D.C.; Timothy G. Casey, LAW
OFFICE OF TIMOTHY G. CASEY, PA, Rockville,
Maryland, for Appellees The Creig Northrop Team,
P.C. and Creighton E. Northrop, III. Andrew C.

2a
White, William
N.
Sinclair,
SILVERMAN
THOMPSON SLUTKIN & WHITE LLC, Baltimore,
Maryland, for Appellees Lindell C. Eagan and
Lakeview Title Company, Inc.
Before GREGORY, Chief Judge,
QUATTLEBAUM, Circuit Judges.

KING,

and

Opinion
Vacated and remanded for dismissal by published
opinion. Judge King wrote the opinion, in which Chief
Judge Gregory and Judge Quattlebaum joined.
KING, Circuit Judge:
This appeal arises from a purported kickback scheme
orchestrated by the defendants, The Creig Northrop
Team, P.C., Creighton Northrop, III (the “Northrop
Defendants”), the Lakeview Title Company, Inc., and
Lindell Eagan (the “Lakeview Defendants”).
Homeowners Christine and Patrick Baehr (the
“Baehrs”), as representatives of the putative class of
plaintiffs, specify in their operative single-count
complaint that the kickback scheme, in which the
Lakeview Defendants paid the Northrop Defendants
for marketing services that were actually illegal
business referrals, deprived them and the other class
members of “impartial and fair competition between
settlement service[s] providers,” in contravention of
the Real Estate Settlement Procedures Act
(“RESPA”), 12 U.S.C. § 2601 et seq. See Baehr v. The
Creig Northrop Team, P.C., No. 1:13-cv-00933, at ¶¶ 23,
41-47 (D. Md. Aug. 15, 2014), ECF No. 89 (the
“Operative Complaint”).

3a
After conducting discovery, the Northrop and
Lakeview Defendants jointly moved for summary
judgment, arguing, inter alia, that the Baehrs had not
established that they possessed Article III standing to
sue. The district court thereafter awarded summary
judgment to the defendants on that ground. More
specifically, the court reasoned that the Baehrs had not
suffered a concrete injury, and thus could not establish
the necessary injury-in-fact for standing. See Baehr v.
The Creig Northrop Team, P.C., No. 1:13-cv-00933, slip
op. at 21-22 (D. Md. Dec. 7, 2018), ECF No. 244 (the
“Summary Judgment Opinion”). Alternatively, the
Summary Judgment Opinion barred the Baehrs's claim
under RESPA's statute of limitations based on their
failure to establish that the claim was equitably
tolled. Id. at 29. As explained below, we agree that the
Baehrs lack standing to sue. Because a federal court
cannot exercise jurisdiction in the absence of standing,
we vacate and remand for dismissal of this
case. See Steel Co. v. Citizens for a Better Env't, 523
U.S. 83, 94, 102, 118 S.Ct. 1003, 140 L.Ed.2d 210
(1998) (recognizing that standing “is part of the common
understanding of what it takes to make a justiciable
case” and that when jurisdiction does not exist, “the
only function remaining to the court is that of
announcing the fact and dismissing the cause” (internal
quotation marks omitted)).
I.
A.
In July 2008, the Baehrs purchased a home in
Glenwood, Maryland (the “Glenwood home”).1 They

4a
hired Maija Dykstra, a real estate agent who was a
member of The Creig Northrop Team, P.C. (“The
Northrop Team”), to represent them as buyers. The
Northrop Team is comprised of real estate agents who
independently provide real estate brokerage services
under the brokerage license of Long & Foster Real
Estate, Inc.2 Creighton Northrop, III, a real estate
agent, is the President of The Northrop Team. As
President of The Northrop Team, Northrop splits real
estate commissions with the other real estate agents
who are independent-contractor members of the Team.
Pursuant to the Exclusive Right to Represent Buyer
Agreement between the Baehrs and Long & Foster,
Dykstra, as the Baehrs's real estate agent, located the
Glenwood home and helped the Baehrs submit an offer
to purchase it for $835,000. The sellers of the Glenwood
home were represented by Northrop. After the
Baehrs's offer was accepted, Dykstra informed them
that the Lakeview Title Company would provide the
settlement services necessary to complete the purchase
of the Glenwood home. The Baehrs were not first-time
home buyers and understood that they were free to
procure settlement services from any provider thereof,
but they “were satisfied” that Dykstra would select the
settlement company. See J.A. 171.3 In selecting the
Lakeview Title Company, Dykstra informed the Baehrs
that The Northrop Team “do[es] all [its] settlements at
[the] Lakeview [Title Company].” Id. at 172. Despite
shopping around for a mortgage lender, the Baehrs
proceeded to settle on the Glenwood home with the
Lakeview Title Company without investigating the
Company or any other settlement services providers.

5a
The Baehrs did not inquire about the Lakeview Title
Company's rates, quality of service, or affiliation with
The Northrop Team because they had “contracted with
a reputable company”—that is, The Northrop Team—
and believed that The Northrop Team “would have
[their] best interest.” Id. at 173.
The HUD-1 Settlement Statement prepared for the
Baehrs's purchase of the Glenwood home listed, inter
alia, the following fees for settlement services
provided by the Lakeview Title Company:4
Title Examination to Lakeview Title
Company:
Title insurance binder to Lakeview Title
Company:
Title Insurance to Chicago Title Insurance
Company:
Recording Services to Lakeview Title
Company:

$375.00
$50.00
$2,990.00
$50.00

[E
E ditor’s Note: The preceding image contains the
reference for footnote5].
See J.A. 145. Other than the title insurance premium of
$2,990, which was based on a rate filed with the State of
Maryland, the Baehrs had paid similar fees for
settlement services when purchasing a less-expensive
home in Germantown in 2000. Id. at 219; see also Md.
Code, Ins. §§ 11-403, 11-404, 11-407 (requiring that title
insurance premiums be filed and approved by Maryland
Insurance Administration and prohibiting deviation
from filed rates). As they had for the Glenwood home,

6a
when purchasing the Germantown home, the Baehrs
paid $375 for the title examination and $50 for the title
insurance binder. See J.A. 219. The Baehrs also paid $75
for document preparation, $10 for notary fees, and $10
for copies. Id. In sum, the Baehrs paid $520 in
discretionary fees to their settlement services provider
for the Germantown home purchase. By contrast, the
Baehrs paid only $425 in discretionary fees to the
Lakeview Title Company for the Glenwood home
purchase.
B.
1.
Almost five years after closing on the Glenwood home,
the Baehrs received an unsolicited letter from a lawyer,
G. Russell Donaldson, stating that they might have “a
legal claim based on illegal kickbacks paid for the
referral of [their] business to a title company that
settled
[their]
purchase”
of
the
Glenwood
home. See J.A. 342. Shortly thereafter, the Baehrs
retained Donaldson and the law firm Conti Fenn &
Lawrence LLC to pursue a claim that they had been
illegally referred to the Lakeview Title Company in
contravention of RESPA. Before receiving Donaldson's
letter, the Baehrs were satisfied with their experience
purchasing the Glenwood home and the settlement
services that the Lakview Title Company had provided.
Indeed, even after learning of the purported kickback
scheme, the Baehrs believed that the Lakeview Title
Company was entitled to the fees it charged “for the
work that [it] did.” Id. at 208, 327.

7a
Nevertheless, on March 27, 2013, the Baehrs, as
representatives of the putative class of victims in these
proceedings, filed suit in the District of Maryland
against multiple defendants. See Baehr v. The Creig
Northrop Team, P.C., No. 1:13-cv-00933 (D. Md. Mar.
27, 2013), ECF No. 1 (the “Initial Complaint”). The
single count of the Initial Complaint alleged that the
Northrop and Lakeview Defendants, plus Long &
Foster Real Estate, Inc. and Carla Northrop, violated
RESPA's prohibition against giving or receiving
kickbacks for settlement service referrals. Id. ¶ 1. That
claim was predicated on a kickback scheme that
spanned from 2000 to 2014, and that was perpetrated
by the Northrop and Lakeview Defendants, Long &
Foster, and Carla Northrop. The Initial Complaint
alleged that, between 2000 and 2007, the Lakeview
Defendants paid illegal kickbacks for settlement service
referrals under the guise of a sham employment
agreement between the Lakeview Title Company and
Carla Northrop. Id. ¶ 17. And the Initial Complaint
alleged that, between 2008 and 2014, the Lakeview
Defendants paid illegal kickbacks for settlement service
referrals under the guise of a sham marketing
agreement between the Lakeview Title Company and
The Northrop Team. Id. ¶ 19. According to the Initial
Complaint, as a result of the kickback scheme, the
Baehrs and the putative class “were deprived of an
impartial and fair competition between settlement
service[s] providers in violation of RESPA.” Id. ¶ 25.
2.

8a
On January 29, 2014, the district court dismissed
defendants Long & Foster and Carla Northrop with
prejudice. See Baehr v. The Creig Northrop Team, P.C.,
No. 1:13-cv-00933, slip op. at 16, 18 (D. Md. Jan. 29,
2014), ECF No. 58 (the “Dismissal Opinion”); see
also Baehr v. The Creig Northrop Team, P.C., No. 1:13cv-00933, slip op. at 10 (D. Md. Jul. 24, 2014), ECF No.
84 (confirming that dismissals of Long & Foster and
Carla Northrop were with prejudice). The court also
granted the Baehrs's motion for class certification, but
redefined the putative class thusly:
All Maryland residents who retained Long &
Foster Real Estate, Inc., Creighton Northrop,
III, and [T]he Creig Northrop Team, P.C. to
represent them in the purchase of a primary
residence between January 1, 2008 to the
present and settled on the purchase of their
primary residence at Lakeview Title Company,
Inc.
See Dismissal Opinion 31.6
Nearly seven months thereafter, on August 15, 2014,
the Baehrs filed their Operative Complaint, which
names as defendants the Northrop Defendants and the
Lakeview Defendants. According to the Operative
Complaint, the Northrop and Lakeview Defendants
arranged for The Northrop Team to exclusively refer
its clients to the Lakeview Title Company for
settlement services. In exchange for The Northrop
Team's efforts to steer clients to the Lakeview Title
Company, the Lakeview Defendants paid the Northrop
Defendants illegal kickbacks in the form of monthly

9a
cash payments of up to $12,000. Those illegal kickbacks
were concealed using a sham marketing agreement
between The Northrop Team and the Lakeview Title
Company. See Operative Complaint ¶ 16. Pursuant to
the marketing agreement, the Northrop Defendants
designated the Lakeview Title Company as their
exclusive settlement services provider and furnished
the Lakeview Title Company with unspecified
marketing services. The Lakeview Title Company
agreed to remit monthly payments of $6,000 to the
Northrop Defendants for those marketing services.
Notwithstanding, the Northrop Defendants did not
provide “any real joint marketing or services
reasonably related to actual amounts paid” by the
Lakeview
Title
Company
to
the Northrop
Defendants. Id. ¶ 20. Rather, “the compensation was
based on referrals and not for any marketing services
rendered
pursuant
to
the
[m]arketing
[a]greement.” Id. The Operative Complaint specifies
that, under the marketing agreement, the Northrop
Defendants have received over $500,000 from the
Lakeview Defendants. Id. ¶ 19.
The Operative Complaint also alleges that the
Northrop and Lakeview Defendants “actively
concealed” the marketing agreement from their clients,
including the Baehrs. See Operative Complaint ¶ 21.
More specifically, the Lakeview Title Company
provided each client with Long & Foster's Affiliated
Business Disclosure that “purported to disclose”
“business relationships (e.g., direct or indirect
ownership interests, joint ventures and/or contractual
relationships including marketing agreements and/or
office leases)” between Long & Foster or “its
subsidiaries or affiliates” and the entities specified

10a
therein. Id. (internal quotation marks omitted). Despite
the marketing agreement between The Northrop Team
and the Lakeview Title Company, the Lakeview Title
Company was not among the entities specified in the
Affiliated Business Disclosure. Because they “had no
reason to doubt the [Affiliated Business Disclosure],
and
reasonably
relied”
on
its
“affirmative
representation ... that it included the title companies
that Long & Foster, or its affiliates (including [T]he
Northrop Team) had a financial relationship with,” the
Baehrs did not learn of the kickback scheme until
March 16, 2013, when they were contacted by
Donaldson. Id. ¶¶ 21-22.
Predicated on the kickback scheme, the Operative
Complaint alleges that the Northrop and Lakeview
Defendants deprived the Baehrs of “an impartial and
fair competition between settlement service[s]
providers in violation of RESPA,” 12 U.S.C. §
2607(a). See Operative Complaint ¶ 23. To that end, the
Operative Complaint seeks, inter alia, statutory treble
damages totaling more than $11,200,000. See 12 U.S.C. §
2607(d)(2) (authorizing damages equal to “three times”
amount paid for settlement services provided in
contravention of RESPA).
3.
Following discovery, on June 19, 2015, the Northrop
and Lakeview Defendants jointly moved for summary
judgment. The Northrop and Lakeview Defendants
contended that summary judgment was warranted for
two reasons. First, they asserted that the Baehrs's
claim was not subject to equitable tolling and thus was

11a
barred by RESPA's one-year statute of limitations.
Second, they asserted that the Baehrs had not suffered
a concrete injury and thus lacked Article III standing
to sue. On December 7, 2018, the district court granted
the Northrop and Lakeview Defendants' summary
judgment motion. The court concluded that the Baehrs
lacked Article III standing because they were not
overcharged for settlement services and had not
otherwise suffered a concrete injury as necessary to
establish
injury-in-fact. See Summary
Judgment
Opinion 15-22. Alternatively, the court concluded that
the Baehrs's claim was barred by RESPA's one-year
statute of limitations because the Baehrs were not
diligent in investigating The Northrop Team's
affiliation with the Lakeview Title Company. Id. at 2229. The Baehrs timely noted this appeal, and we possess
jurisdiction under 28 U.S.C. § 1291.
II.
1We review “de novo a district court's award of
summary judgment, viewing the facts and inferences
reasonably drawn therefrom in the light most favorable
to the nonmoving party.” See United States v. Ancient
Coin Collectors Guild, 899 F.3d 295, 312 (4th Cir.
2018) (internal quotation marks omitted). An award of
summary judgment is warranted if “there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” See Fed. R.
Civ. P. 56(a).
III.

12a
Article III standing is “part and parcel of the
constitutional mandate that the judicial power of the
United States extend only to ‘cases’ and ‘controversies.’
” See Libertarian Party of Virginia v. Judd, 718 F.3d
308, 313 (4th Cir. 2013) (quoting U.S. Const. art. III, §
2). That constitutional mandate thus “requires a party
invoking a federal court's jurisdiction to demonstrate
standing.” See Wittman v. Personhuballah, ––– U.S. ––
––, 136 S. Ct. 1732, 1736, 195 L.Ed.2d 37 (2016). To that
end, the “irreducible constitutional minimum of
standing contains three elements”: (1) the plaintiff must
have suffered an injury-in-fact, which (2) must be
causally connected to the conduct complained of, and
that (3) will likely be redressed if the plaintiff
prevails. See Lujan v. Defs. of Wildlife, 504 U.S. 555,
560-61, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992). As no
case or controversy exists without injury-in-fact, it is
the “[f]irst and foremost” element of Article III
standing. See Steel Co. v. Citizens for a Better Env't,
523 U.S. 83, 103, 118 S.Ct. 1003, 140 L.Ed.2d 210 (1998).
In order to establish injury-in-fact, a plaintiff must
show that she suffered “an invasion of a legally
protected interest”—i.e., an injury—that is “concrete
and particularized.” See Lujan, 504 U.S. at 560, 112
S.Ct. 2130. Crucially, concreteness and particularization
are distinct requirements for injury-in-fact; the former
is “quite different” from the latter. See Spokeo, Inc. v.
Robins, ––– U.S. ––––, 136 S. Ct. 1540, 1548, 194
L.Ed.2d 635 (2016). An injury is particularized if it
“affect[s] the plaintiff in a personal and individual
way.” Id. And an injury is concrete if it is “de facto”—
that is, if it “actually exist[s].” Id.

13a
Concrete injuries are not, however, limited to those
injuries that result in tangible harm. See Spokeo, 136 S.
Ct. at 1549. Indeed, injury-in-fact is often predicated on
intangible harm. See, e.g., Fed. Election Comm'n v.
Akins, 524 U.S. 11, 24-25, 118 S.Ct. 1777, 141 L.Ed.2d
10 (1998) (informational injury); Lujan, 504 U.S. at 56263, 112 S.Ct. 2130 (aesthetic injury); Heckler v.
Mathews, 465 U.S. 728, 739-40, 104 S.Ct. 1387, 79
L.Ed.2d 646 (1984) (stigmatic injury). Notwithstanding,
a statutory violation is not necessarily synonymous
with an intangible harm that constitutes injury-infact. See Spokeo, 136 S. Ct. at 1549. For that reason,
when a plaintiff sues to vindicate a statutory right, she
still must establish that she suffered a concrete injury
from the violation of that right. That is, a plaintiff
cannot merely allege a “bare procedural violation,
divorced from any concrete harm” and “satisfy the
injury-in-fact requirement of Article III.” Id.
The strictures of Article III standing are no less
important in the context of class actions. SeeKrakauer
v. Dish Network, LLC, 925 F.3d 643, 652 (4th Cir. 2019).
In a class action, “we analyze standing based on the
allegations of personal injury made by the named
plaintiffs.” See Hutton v. Nat'l Bd. of Exam'rs in
Optometry, Inc., 892 F.3d 613, 620 (4th Cir.
2018) (internal quotation marks omitted). A putative
class thus cannot establish Article III standing
“without a sufficient allegation of harm to the named
plaintiff in particular.” Id. (internal quotation marks
and alteration omitted). In response to a summary
judgment request, the named plaintiff is obliged to “set
forth by affidavit or other evidence specific facts” that,

14a
when taken as true, establish each element of Article
III standing. See Lujan, 504 U.S. at 561, 112 S.Ct.
2130 (internal quotation marks omitted); Judd, 718 F.3d
at 313.
On appeal, the Baehrs contend that the deprivation of
impartial and fair competition between settlement
services providers is a concrete injury under RESPA.
Accordingly, the Baehrs maintain that “an overcharge
is not necessary to have standing to bring [their]
RESPA kickback claim.” See Br. of Appellant 33. The
Baehrs also advance three concrete injuries not alleged
in the Operative Complaint. First, the Baehrs suggest
that the Northrop Defendants owed fiduciary duties to
remit to the Baehrs any kickback paid by the Lakeview
Defendants and to provide impartial advice and
advocacy. According to the Baehrs, because those two
duties went unfulfilled, the otherwise reasonable fees
that they paid to the Lakeview Title Company were an
overcharge that caused them to suffer a concrete
injury. Second, the Baehrs suggest that they suffered a
concrete injury because the Northrop Defendants were
unjustly enriched by the Baehrs's engagement of the
Lakeview Title Company as their settlement services
provider. Third, the Baehrs suggest that they suffered
a concrete injury by paying for settlement services
provided in contravention of RESPA.
A.
We first take up the Baehrs's contention that, through
RESPA, Congress elevated the deprivation of impartial
and fair competition between settlement services
providers “to the status of [a] legally cognizable

15a
injur[y].” See Lujan, 504 U.S. at 578, 112 S.Ct. 2130.
Because injury-in-fact is a “hard floor” of Article
III standing “that cannot be removed by statute,” the
question for us is whether the deprivation of impartial
and fair competition between settlement services
providers—an intangible harm—is nevertheless a
concrete injury. See Summers v. Earth Island Inst., 555
U.S. 488, 497, 129 S.Ct. 1142, 173 L.Ed.2d 1 (2009).
1.
The Supreme Court's recent decision in Spokeo sets
forth two considerations—historical practice and
congressional judgment—that are “instructive” for
determining whether an intangible harm constitutes a
concrete injury. See 136 S. Ct. at 1549. The Baehrs have
not identified a harm “traditionally ... regarded as
providing a basis for a lawsuit in English or American
courts” that bears “a close relationship” to the
deprivation of impartial and fair competition among
settlement services providers. Id. Instead, the Baehrs's
argument is predicated on Congress's inclusion of a
cause of action in RESPA for damages sustained
through settlement service referrals sullied by
kickbacks.
Cognizant that a statutory cause of action is not a
replacement for concrete injury, we recognize that a
plaintiff suffers a concrete injury if she shows the harm
stemming from the “defendant's statutory violation is
the type of harm Congress sought to prevent when it
enacted the statute.” See Curtis v. Propel Prop. Tax
Funding, LLC, 915 F.3d 234, 240-41 (4th Cir.
2019) (internal quotation marks omitted). Congress

16a
enacted RESPA to protect consumers from “certain
abusive practices” that had resulted in “unnecessarily
high settlement charges.” See 12 U.S.C. § 2601(a); see
also Boulware v. Crossland Mortg. Corp., 291 F.3d 261,
267 (4th Cir. 2002) (observing that RESPA is “directed
against” things that “increase the cost of real estate
transactions”). Relevant here, those abusive practices
include “kickbacks or referral fees that tend to increase
unnecessarily the costs of certain settlement
services.” See 12 U.S.C. § 2601(b)(2). Accordingly, as
codified at 12 U.S.C. § 2607(a), RESPA provides that
“[n]o person shall give and no person shall accept any
fee, kickback, or thing of value pursuant to any
agreement or understanding ... that business incident to
or a part of a real estate settlement service ... shall be
referred to any person.” Id. § 2607(a). RESPA's
proscription against kickbacks is enforceable by federal
agencies, state attorneys general and insurance
commissioners,
and
private
citizens. Id. §
2607(d)(1) (criminal penalties), (d)(2) (damages), (d)(4)
(injunctive remedies). The cause of action for private
citizens is limited, however, to claims for damages
“equal to three times the amount of any charge paid”
for settlement services rendered in contravention of §
2607(a). Id. § 2607(d)(2).
Plainly, in proscribing the payment of “formal
kickbacks” for referrals of business to settlement
services providers, Congress aimed to eliminate a
practice that it believed interfered with the market for
settlement services. See Boulware, 291 F.3d at 266, 268.
To say that RESPA protects consumers from
kickbacks' interference with the market for settlement

17a
services is not to say, however, that interference with
the market is the harm to consumers that Congress
sought to prevent through RESPA. Indeed, Congress
specified in RESPA that by prohibiting kickbacks, the
harm it sought to prevent is the increased costs that
“tend” to result from kickbacks' interference with the
market for settlement services. See 12 U.S.C. §
2601(b)(2).
To the extent that the fees charged by the Lakeview
Title Company were reasonable, the Baehrs do not
contend that they were harmed by being overcharged
for settlement services. Instead, the Baehrs contend
that they were harmed by being deprived of impartial
and fair competition between settlement services
providers. Because the deprivation of impartial and fair
competition between settlement services providers is
not the harm that Congress enacted § 2607(a) of
RESPA to prevent, that alleged injury reduces to “a
statutory violation divorced from any real world
effect.” See Dreher v. Experian Info. Sols., 856 F.3d
337, 346 (4th Cir. 2017). The upshot is that the
deprivation of impartial and fair competition between
settlement services providers—untethered from any
evidence that the deprivation thereof increased
settlement costs—is not a concrete injury under
RESPA.
2.
The Baehrs resist the conclusion that the deprivation of
impartial and fair competition is not a concrete injury
under RESPA for two reasons. First, the Baehrs
emphasize our passing observation in Boulware that a

18a
violation of § 2607(a)need not involve an overcharge to
the consumer. See 291 F.3d at 266. Second, they point to
out-of-circuit decisions, which purportedly compel the
conclusion that the deprivation of impartial and fair
competition between settlement services providers is a
concrete injury under RESPA. We are not persuaded
by either tack.
To begin, Spokeo made clear that a statutory violation
does not always amount to a concrete injury. See 136 S.
Ct. at 1549-50. Accordingly, we are satisfied
that Boulware is not at odds with our conclusion that
the mere deprivation of impartial and fair competition
does not work concrete injury.7
As to the decisions of three other circuit courts upon
which the Baehrs rely—specifically, Edwards v. First
American Corp., Alston v. Countrywide Financial
Corp., and Carter v. Welles-Bowen Realty, Inc.—we
observe that those decisions preceded Spokeo. See 610
F.3d 514 (9th Cir. 2010); 585 F.3d 753 (3d Cir. 2009); 553
F.3d 979 (6th Cir. 2009). Indeed, the Supreme Court
explicitly recognized that Spokeo abrogated Edwards'
conclusion that a violation of § 2607(a) is a concrete
injury regardless of any overcharge. See Frank v. Gaos,
––– U.S. ––––, 139 S. Ct. 1041, 1046, 203 L.Ed.2d 404
(2019) (per curiam). Even if Alston's and Carter's
similar conclusions remain viable after Spokeo—a
question that we do not answer herein—those cases
stem from circumstances different than the
circumstances of this appeal. That is, both decisions
concern schemes facilitated by business ownership
arrangements that enabled the defendants to receive de

19a
facto kickbacks for referrals. See Alston, 585 F.3d at
756-57; Carter, 553 F. 3d at 982 & n.1. As the Sixth
Circuit explained in Carter, following RESPA's
enactment, Congress was particularly concerned that
these so-called affiliated business arrangements could
be used to circumvent § 2607. See 553 F.3d at 987. By
contrast, the Baehrs allege that the Lakeview
Defendants were paying the Northrop Defendants
direct kickbacks under a sham marketing agreement.
Insofar as the conclusions in Alston and Carter were
animated by Congress's concerns about the affiliated
business arrangements at issue therein, those
conclusions are inapposite to this appeal.
For similar reasons, the Baehrs find no footing in the
District
of
Maryland's
pre-Spokeo decisions
in Robinson v. Fountainhead Title Group Corp. and
Fangman v. Genuine Title, LLC. See 447 F. Supp. 2d
478 (D. Md. 2006); Civil Action No. RDB-14-0081, 2015
WL
8315704
(D.
Md.
Dec.
9,
2015).
Like Alston and Carter, Robinson concerned a scheme
involving affiliated business arrangements, in which the
defendants received de facto kickbacks through their
ownership stakes in sham settlement services
providers. See Robinson, 447 F. Supp. 2d at 482. The
Baehrs's reliance on Robinsonis further undercut by
the district court's recognition therein that the
plaintiffs had alleged that they were overcharged for
settlement services. Id. at 487-88. And in Fangman, the
district court specifically applied Edwards' nowabrogated conclusion that a RESPA violation is an
injury-in-fact before concluding that the plaintiffs had

20a
standing in part because they had alleged an
overcharge. See Fangman, 2015 WL 8315704, at *3, *5.
Lastly, we emphasize that this record is devoid of
evidence that the Baehrs were actually deprived of
impartial and fair competition among settlement
services providers. See Lujan, 504 U.S. at 561, 112 S.Ct.
2130 (requiring plaintiff on summary judgment to
establish standing by “set[ting] forth by affidavit or
other evidence specific facts” (internal quotation marks
omitted)). Besides parroting the Operative Complaint
in deposition testimony and affidavits, the Baehrs set
forth no evidence that impartial and fair
competition between settlement services providers
was even relevant to their decision to obtain settlement
services from the Lakeview Title Company. See J.A.
208, 695, 698; see also Dreher, 856 F.3d at 347. On the
contrary, the Baehrs did not investigate the Lakeview
Title Company or other settlement services providers,
were admittedly satisfied with the settlement services
that they received, and continue to believe that the
Lakeview Title Company deserved to be compensated
for those services.
We therefore readily conclude that the Baehrs did not
suffer any real-world harm, much less a concrete injury,
from the deprivation of impartial and fair competition
between settlement providers. Accordingly, the
Baehrs's assertion that they were so deprived is
insufficient to establish Article III standing.
B.

21a
Because we conclude that the deprivation of fair and
impartial competition among settlement providers is
not a concrete injury under RESPA, we turn to the
Baehrs's three novel theories of standing. We
address—and reject—each of those theories seriatim.
1.
First, the Baehrs contend that the Northrop
Defendants owed them fiduciary duties to return any
kickback paid by the Lakeview Defendants to the
Baehrs and to provide impartial advice and advocacy.
The Baehrs assert that the Northrop Defendants'
failure to fulfill those duties rendered the otherwise
reasonable fees that they paid to the Lakeview Title
Company an overcharge. This theory fails because the
Baehrs have not established that the Northrop
Defendants were their fiduciaries.
The Baehrs's contention that the Northrop Defendants
were their fiduciaries rests solely on their boilerplate
recitation that, under Maryland law, a real estate
broker “stands in a fiduciary relationship” to her
client. SeeWilkens Square LLLP v. W.C. Pinkard &
Co., 189 Md.App. 256, 984 A.2d 329, 336 (2009).8 True
enough. But Maryland law also specifies that a real
estate broker “is an agent” for her “principal, with
incumbent
fiduciary
duties
to
that
person
alone.” See Proctor v. Holden, 75 Md.App. 1, 540 A.2d
133, 142-43 (1988). Put succinctly, in a real estate
transaction, a seller's representative does not owe
fiduciary duties to the buyer. See Lewis v. Long &
Foster Real Estate, Inc., 85 Md.App. 754, 584 A.2d
1325, 1329 (1991); see also Yerkie v. Salisbury, 264 Md.

22a
598, 287 A.2d 498, 500-01 (1972) (“[A] real estate broker
is a fiduciary and when a seller employs a broker to sell
[her] property [s]he bargains for the disinterested skill,
diligence and zeal of the broker for [her] own exclusive
benefit.”). In the Baehrs's purchase of the Glenwood
home, Northrop provided brokerage services to the
sellers. As the sellers' representative, Northrop thus
did not “stand[ ] in a fiduciary relationship” to the
Baehrs for the purchase of the Glenwood
home. See Wilkens Square, 984 A.2d at 336; see
also Herbert v. Saffell, 877 F.2d 267, 274 (4th Cir.
1989) (explaining that, in Maryland, real estate agents
“do not owe a fiduciary duty to prospective purchasers
under most circumstances”).
We are similarly unconvinced that The Northrop
Team—a real estate team organized as a professional
corporation—was the Baehrs's fiduciary in the
purchase of the Glenwood home. The Baehrs have not
established that an agency relationship existed
between The Northrop Team and Dykstra—an
independent consultant. See Brooks v. Euclid Sys.
Corp., 151 Md.App. 487, 827 A.2d 887, 897
(2003) (setting forth three factors for determining
whether agency relationship exists under Maryland
law). Nor do the Baehrs identify any authority to
support their assertion that, in Maryland, a professional
corporation itself can owe fiduciary duties. Absent any
such guiding authority, we leave that question of
Maryland law to the Maryland courts.
In short, the Baehrs have not established that either
Northrop or The Northrop Team were their fiduciaries

23a
in the Glenwood home purchase. See Proctor, 540 A.2d
at 142 (explaining that, in Maryland, “the party alleging
the agency has the burden of proving its existence and
its nature and extent”). The Baehrs's fiduciary-duty
theory of standing is thus unavailing.
2.
2627Second, invoking Spokeo's instruction “to consider
whether an alleged intangible harm has a close
relationship to a harm that has traditionally been
regarded as providing a basis for a lawsuit in English or
American courts,” the Baehrs theorize that they
suffered a concrete injury because the Northrop
Defendants were unjustly enriched. See Spokeo, 136 S.
Ct. at 1549 (emphasis added). Of course, the unjust
enrichment cause of action is ensconced in our legal
traditions. We are satisfied, however, to reject the
Baehrs's unjust-enrichment theory because it
mistakenly identifies a plaintiff's harm as providing the
basis for an unjust enrichment action. Unlike a
statutory cause of action that provides a damages
remedy based on a plaintiff's loss, the touchstone of
unjust enrichment is a defendant's gain. See Hill v.
Cross Country Settlements, LLC, 402 Md. 281, 936 A.2d
343, 352 (2007) (emphasizing that unjust enrichment “is
not aimed at compensating the plaintiff, but at forcing
the defendant to disgorge benefits that it would be
unjust for [her] to keep” (internal quotation marks
omitted)); Restatement (Third) of Restitution and
Unjust Enrichment § 1 cmt. b (Am. Law Inst. 2011).
That is, unjust enrichment provides a restitutionary
remedy where a defendant receives a recognizable

24a
benefit that it would be inequitable for her to
retain. See Hill, 936 A.2d at 351-52 (setting forth threefactor test for claim of unjust enrichment in
Maryland).9 Accordingly, in an action for unjust
enrichment, a plaintiff need only establish that the
defendant's gain was “without adequate legal
basis.” See Restatement (Third) of Restitution and
Unjust Enrichment § 1cmt. b (Am. Law Inst. 2011). The
plaintiff need not show that she suffered any harm from
the defendant's gain. Id.
28On this record, the Baehrs have not demonstrated
that the benefit purportedly obtained by the Northrop
Defendants—that is, a kickback—worked any harm
other than the alleged violation of RESPA. Such a
statutory violation, if proven, might give rise to liability
in a lawsuit brought under the unjust enrichment cause
of action. But because a plaintiff's harm has not
“traditionally been regarded as providing” the basis for
unjust enrichment actions, we are not persuaded that
the Baehrs's bald allegation of unjust enrichment
suffices to establish a concrete injury. See Spokeo, 136
S. Ct. at 1549. Indeed, concluding that a defendant's
unjust enrichment always works a concrete injury to
the plaintiff in an action for statutory damages runs
counter to Spokeo's mandate that “a bare procedural
violation, divorced from any concrete harm” cannot
“satisfy the injury-in-fact requirement of Article
III.” Id. At bottom, the Baehrs's unjust-enrichment
theory misapprehends the mischief that provides the
basis for the unjust enrichment cause of action.
Therefore, the unjust-enrichment theory also must fail.

25a
3.
Third, the Baehrs contend that they suffered a concrete
injury by paying for settlement services provided in
contravention of RESPA. To support this unlawfultransaction theory, the Baehrs cite a single provision of
the bankruptcy code, which authorizes damages where
a bankruptcy petition preparer improperly renders
legal advice. See 11 U.S.C. § 110(e)(2), (i)(1). We are
satisfied to reject this under-developed theory because
it is at odds with Spokeo's mandate that a statutory
violation “divorced from any concrete harm” is
insufficient to establish injury-in-fact. See Spokeo, 136
S. Ct. at 1549. That is, we do not discern from the
Baehrs's emphasis on their payment for settlement
services any harm other than the Northrop and
Lakeview Defendants' purported RESPA violation.
The Baehrs received settlement services for which they
paid a reasonable rate regardless of whether that
payment was thereafter repackaged as a kickback. On
this record, the harm suffered by the Baehrs under
their unlawful-transaction theory thus reduces to the
type of “bare procedural violation” that has long been
insufficient for Article III standing. Id.; Summers v.
Earth Island Inst., 555 U.S. 488, 496, 129 S.Ct. 1142,
173 L.Ed.2d 1 (2009) (“[D]eprivation of a procedural
right without some concrete interest that is affected by
the deprivation ... is insufficient to create Article
III standing.”). In the circumstances, we must reject
the Baehrs's unlawful-transaction theory of standing.
IV.

26a
Pursuant to the foregoing, the Baehrs have not suffered
a concrete injury. The Baehrs accordingly cannot
establish injury-in-fact, and we therefore agree with
the district court's determination that they lack Article
III standing to sue. Because the court was obliged to
dismiss upon making that determination, we vacate the
summary judgment award and remand for
dismissal. See Steel Co. v. Citizens for a Better Env't,
523 U.S. 83, 94, 102, 118 S.Ct. 1003, 140 L.Ed.2d 210
(1998).
VACATED AND REMANDED
Footnotes
1Because the Baehrs appeal the district court's award
of summary judgment to the defendants, we recite the
facts in the light most favorable to the Baehrs, as the
nonmoving party. See Bauer v. Lynch, 812 F.3d 340, 342
n.1 (4th Cir. 2016).
2Pursuant to Maryland law, licensed real estate agents
must provide real estate brokerage services on behalf
of a licensed real estate broker. See Md. Code, Bus. Occ.
& Prof. § 17-310.
3Citations herein to “J.A. ––––” refer to the contents of
the Joint Appendix filed by the parties in this appeal.
4The HUD-1 Settlement Statement is a standardized
form created by the Department of Housing and Urban
Development that lists all fees charged to the buyer
and seller in a real estate settlement. See What is a
HUD-1 Settlement Statement?, Consumer Fin. Prot.
Bureau (Sept. 12, 2017),

27a
https://www.consumerfinance.gov/ask-cfpb/what-isahud-1-settlement-statement-en-178/.
5The Lakeview Title Company collected the title
insurance premium to split with the Chicago Title
Insurance Company, the title insurance underwriter.
6During oral argument of this appeal, the Baehrs's
lawyer specified that the putative class consists of 1,088
members. See Oral Argument at 1:16, Baehr v. The
Creig Northrop Team, P.C., No. 19-1024 (4th Cir. Jan.
29, 2020),
http://www.ca4.uscourts.gov/oralargument/listen-tooral-arguments.
7Recognizing that a violation of RESPA does not
always result in the type of harm that Congress sought
to prevent is not to say that kickbacks that do not cause
an overcharge are insulated from liability under
RESPA. After all, as explained above, RESPA's
private cause of action is only one of several
mechanisms for enforcing its proscription of kickbacks.
That is, RESPA imposes criminal penalties and
authorizes certain federal and state entities to sue to
enjoin violations of § 2607(a). See 12 U.S.C. §
2607(d)(1), (d)(4).
8A reported decision of the Maryland Court of Special
Appeals is binding precedent unless overturned by the
high court of Maryland. See Archers Glen Partners,
Inc. v. Garner, 176 Md.App. 292, 933 A.2d 405, 424
(2007) (observing that a “reported decision” of the
Maryland Court of Special Appeals “constitutes binding
precedent”).

28a
9Under Maryland law, unjust enrichment “may not be
reduced neatly to a golden rule,” but does consist of
three elements: (1) “[a] benefit conferred upon the
defendant by the plaintiff”; (2) “[a]n appreciation or
knowledge by the defendant of the benefit”; and (3)
“[t]he acceptance or retention by the defendant of the
benefit under such circumstances as to make it
inequitable for the defendant to retain the benefit
without the payment of its value.” See Hill, 936 A.2d at
351.

29a
United States District Court, D. Maryland.
Patrick BAEHR, et al., Plaintiffs,
v.
The CREIG NORTHROP TEAM, P.C., et al.,
Defendants.
Civil Action No. RDB-13-0933
Signed 12/07/2018
Attorneys and Law Firms
Gregory Todd Lawrence, Michael James Silvestri,
Conti Fenn and Lawrence LLC, Baltimore, MD, Glenn
Russell Donaldson, Rachael Elaine Breen, Law Offices
of G. Russell Donaldson PC, Crofton, MD, for Plaintiffs.
Jay N. Varon, Erik Benny, Pro Hac Vice, Jennifer M.
Keas, Foley and Lardner LLP, Washington,
DC, Timothy G. Casey, Law Office of Timothy G. Casey
PA, Rockville, MD, John Augustine Bourgeois, Stuart
M. G. Seraina, Kramon and Graham PA, Andrew C.
White, William Nelson Sinclair, Silverman Thompson
Slutkin and White LLC, Baltimore, MD, for
Defendants.
MEMORANDUM OPINION
Richard D. Bennett, United States District Judge
The Plaintiffs Patrick and Christine Baehr, individually
and on behalf of a class of consumers, bring this singlecount class action1 against the Defendants The Creig
Northrop Team, P.C. (“The Northrop Team”),
Creighton Edward Northrop, III (“Creig Northrop”),

30a
Lakeview Title Company (“Lakeview”), and Lindell
Eagan (“Eagan”) (collectively, the “Defendants”),
alleging that the Defendants violated the Real Estate
Settlement Procedures Act of 1974, as amended, 12
U.S.C. § 2601, et seq. (“RESPA”) through an illegal
kickback scheme whereby The Northrop Team
received unearned fees from Lakeview Title in
exchange for referring clients to Lakeview Title for
settlement. Currently pending before this Court is the
Defendants' Joint Motion for Summary Judgment,
arguing that the Plaintiffs do not have standing to bring
their claim, and that their claim is barred by RESPA’s
one year statute of limitations and equitable tolling
does not apply. (ECF No. 158.)
This Court reviewed the parties' submissions and held
a motions hearing on November 20, 2018. For the
following reasons, Defendants' Joint Motion for
Summary Judgment (ECF No. 158) is GRANTED and
Judgment is ENTERED in favor of Defendants.2
BACKGROUND
In ruling on a motion for summary judgment, this
Court reviews the facts and all reasonable inferences in
the light most favorable to the non-moving party. Scott
v. Harris, 550 U.S. 372, 378, 127 S.Ct. 1769, 167 L.Ed.2d
686 (2007); Hardwick ex rel. Hardwick v. Heyward, 711
F.3d 426, 433 (4th Cir. 2013). As explained below, in
2008 the named Plaintiffs Patrick and Christine Baehr
(the “Plaintiffs” or “Baehrs”) retained Long & Foster
Real Estate, Inc. (“Long & Foster”) as their real estate
broker to assist them in finding a new home. Maija
Dykstra, at the time a Long & Foster agent and

31a
member of the Defendant The Creig Northrop Team,
P.C. (“The Northrop Team”), led by the Defendant
Creighton Edward Northrop, III (“Creig Northrop”),
referred the Plaintiffs to the Defendant Lakeview Title
Company (“Lakeview Title”), run by its President
Defendant Lindell Eagan (“Eagan”), for settlement.
The Baehrs closed on the purchase of this home on July
25, 2008.
On March 27, 2013, more than four and a half years
after they settled on their home, the Plaintiffs filed the
instant suit on behalf of themselves and a putative
class, claiming that the Defendants violated Section 8(a)
of RESPA by using a “sham” marketing agreement
between The Northrop Team and Lakeview Title to
disguise an illegal kickback scheme whereby The
Northrop Team received unearned fees by referring
the Plaintiffs and the putative class to Lakeview Title
for settlement. This Court begins with a brief overview
of RESPA before detailing the factual and procedural
background of this case.
I. The Real Estate Settlement Procedures Act
(“RESPA”)
Congress enacted the Real Estate Settlement
Procedures Act of 1974, as amended, 12 U.S.C. §
2601, et seq.(“RESPA”) after it found that substantial
reforms in the real estate settlement process were
“needed to insure that consumers throughout the
Nation are provided with greater and more timely
information on the nature and costs of the settlement
process and are protected from unnecessarily high
settlement charges caused by certain abusive practices

32a
that have developed in some areas of the country.” 12
U.S.C. § 2601(a). Accordingly, Congress enacted
RESPA to effect “certain changes” that would result
“in the elimination of kickbacks or referral fees that
tend to increase unnecessarily the costs of certain
settlement services.”3 Id. at § 2601(b)(2).
One of RESPA’s prohibitions is that “[n]o person shall
give and no person shall accept any fee, kickback, or
thing of value pursuant to any agreement or
understanding, oral or otherwise, that business incident
to or a part of a real estate settlement service involving
a federally related mortgage loan shall be referred to
any person.” Id. at § 2607(a). RESPA then provides for
a specific set of remedies, including that “[a]ny person
or persons who violate the prohibitions or limitations of
this section shall be jointly and severally liable to the
person or persons charged for the settlement service
involved in the violation in an amount equal to three
times the amount of any charge paid for such
settlement service.” Id.at § 2607(d)(2). RESPA does not
provide, however, an individual with a private right to
injunctive relief. See id. at § 2607(d)(4) (“The Bureau,
the Secretary, or the attorney general or the insurance
commissioner of any State may bring an action to enjoin
violations of this section.”); see also Minter v. Wells
Fargo Bank, N.A., 593 F.Supp.2d 788, 796 (D. Md.
2009) (“[T]his Court finds that there is no private right
to injunctive relief under RESPA.”)
II. The Marketing Agreement
Northrop Team and Lakeview Title

between

The

33a
On April 10, 2008, Creig Northrop and The Northrop
Team entered into a Marketing and Services
Agreement. (ECF No. 210-10.) The Agreement
provided that, among other things, Northrop agreed to
designate Lakeview Title as its “exclusive preferred
settlement and title company” and “to provide certain
marketing services.” (Id. at ¶ 2.1.) In exchange,
Lakeview would pay The Northrop Team a flat fee of
$6,000 per month, “not predicated on the volume of
applications received by Lakeview from Northrop
customers for settlement and title services.” (Id. at 14.)
Finally, the parties agreed “that the terms of the
transaction described herein is of a confidential nature
and shall not be disclosed except to consultants,
advisors and Affiliates, or as required by law. Neither
the parties shall make any public disclosure of the
specific terms of this Agreement, except as required by
law.” (Id. at ¶ 9.21.)
III. The Named Plaintiffs' purchase of their home
with Long & Foster and The Northrop Team
The Named Plaintiffs Patrick and Christine Baehr’s
RESPA claim stems from their purchase of a home in
Glenwood, Maryland (“Glenwood home”) on July 25,
2008. (ECF No. 158-3.) In April of 2008, the Baehrs
entered into an Exclusive Right to Represent Buyer
Agreement with Long & Foster to assist them in
selling their previous home and finding a new
home. (ECF No. 158-8.) The Defendant Creig Northrop
is a licensed real estate agent who provides real estate
brokerage services under Long & Foster’s real estate
brokerage license.4 Creig Northrop also runs The

34a
Northrop Team, a real estate agent team, along with
his wife Carla Northrop. Maija Dykstra, a Northrop
Team Member at the time, was the Long & Foster real
estate agent who assisted the Baehrs in the selling and
purchase of their home. (P. Baehr Dep., ECF No. 158-4
at 94.)5
When the Baehrs began working with The Northrop
Team, they received promotional materials for various
companies, including Lakeview Title, and a folder of
various forms to be signed. (ECF No. 158-12.) Among
the forms to be signed were an Understanding Whom
Real Estate Agents Represent Form and an Affiliated
Business Arrangement (“ABA”) Disclosure Statement.
(Id. at 8-9; ECF No. 210-31.) The ABA Disclosure
Statement, given to the Baehrs by Dykstra, was a Long
& Foster form which gave clients “notice that Long &
Foster Real Estate, Inc. (‘Long & Foster’) has business
relationships (e.g., direct or indirect ownership
interests,
joint
ventures
and/or
contractual
relationships including marketing agreements and/or
office leases) with the following mortgage, title, closing,
and insurance service providers.”6(ECF No. 210-31.)
Under closing and title insurance companies, the Long
& Foster Disclosure Statement listed twelve companies
and their affiliates in which Long & Foster had a
business relationship.7 (Id.)
Maija Dykstra assisted the Baehrs in finding and
ultimately making an offer for the purchase of the
Glenwood home for $835,000. (P. Baehr Dep., ECF No.
158-4 at 110; HUD-1, ECF No. 158-3.) From previous
experience purchasing a home, the Baehrs understood

35a
that once a purchase price was agreed upon, they
needed a settlement company and title insurance to
complete the purchase.8 (ECF No. 158-4 at 132; C.
Baehr Dep., ECF No. 158-14 at 80, 82.) Both Patrick
and Christine Baehr testified that while working with
Long & Foster and The Northrop Team, they knew and
understood that they could choose their own settlement
and title company. (ECF No. 158-4 at 137; ECF No.
158-14 at 82.) Despite knowing that they were free to
choose their own company, however, the Baehrs did not
take any action to find their own settlement and title
company. (ECF No. 158-4 at 134, 137.) Rather, Patrick
Baehr testified that he expected his Northrop Team
Member, Dykstra, to find him a settlement company.
(Id. at 138.)
Thereafter in July of 2008, the month the Baehrs closed
on their home, Dykstra informed the Baehrs that
Lakeview Title would handle their settlement. (P.
Baehr Dep., ECF No. 158-4 at 138; C. Baehr Dep., ECF
No. 158-14 at 98.) Specifically, Patrick Baehr testified
that Dykstra stated “we do all of our settlements at
Lakeview.” (ECF No. 158-4 at 139.) It is undisputed
that when Dykstra informed the Baehrs that “we do all
of our settlements at Lakeview,” the Baehrs did not ask
a single question regarding why a Northrop Team
Member, associated with Long & Foster, would refer
all settlements to Lakeview Title. They also did not ask
whether Dykstra, Long & Foster, or The Northrop
Team had an affiliation or some form of an agreement
with Lakeview Title. (P. Baehr Dep., ECF No. 158-4 at
138-41.) This was despite the fact that Lakeview Title
was not one of the twelve closing or title insurance

36a
companies listed on Long & Foster’s ABA Disclosure
Statement and that Lakeview Title was not the title
company the Baehrs used when settling on their
previous home. (ECF Nos 210-31; ECF No. 158-4 at
229, 230.)
Rather, the Baehrs elected to proceed with Lakeview
Title handling their settlement without objection.
Subsequently, on July 25, 2008, the Baehrs obtained
title insurance from and settled on the Glenwood home
with Lakeview Title. (HUD-1, ECF No. 158-3.) Patrick
Baehr testified that despite feeling comfortable and
having the opportunity to ask questions during the
closing process, he did not recall asking any questions.
(ECF No. 158-4 at 167-68.) The Baehrs' HUD-19 for the
purchase of their home then listed the following fees,
among others, paid from borrower’s funds at
settlement:
Contract sales price:

$835,000.00

Administrative Fee to Long & Foster:

$395.00

Title Examination to Lakeview Title
Company:

$375.00

Title insurance binder to Lakeview Title
Company:
Title Insurance to Chicago Title Insurance
Company:
Recording Services to Lakeview Title
Company:

$50.00
$2,990.00
$50.00

37a
(HUD-1, ECF No. 158-3.) As Chicago Title Insurance
Company was the title underwriter, that amount was
also sent to Lakeview Title. (ECF No. 158-1 at 11 n. 11.)
After the settlement process, Patrick Baehr testified
that he was satisfied with the services that Lakeview
Title provided. (P. Baehr Dep., ECF No. 158-4 at 164;
C. Baehr Dep., ECF No. 158-14 at 128.) Accordingly, he
believed that Lakeview Title deserved to be
compensated in connection with the settlement services
and did not object to paying Lakeview Title or Chicago
Title Insurance Company’s fee. Satisfied with their
services, over the next four and a half years, the Baehrs
did not contact Dykstra, Creig Northrop, anyone on the
Northrop Team, Lakeview, or Long & Foster about
whether The Northrop Team may have had a
marketing agreement or other arrangement with
Lakeview Title, or whether The Northrop Team may
have received anything of value from Lakeview Title in
connection with the Baehrs' purchase of the Glenwood
home. (P. Baehr Dep., ECF No. 158-4 at 206.)
IV. Four and a half years later, the Plaintiffs file the
instant action
On March 15, 2013, four and a half years after the
Baehrs purchased their home, the Baehrs received a
letter from their current counsel. (ECF No. 158-16.)
The letter indicated that counsel was “investigating
whether you and other persons similarly situated may
have a legal claim based on illegal kickbacks paid for
the referral of your business to a title company that
settled your purchase.... I believe that you may be
entitled to financial recovery under RESPA.” (Id.)

38a
Subsequently, the Baehrs received a written
engagement letter to pursue the instant claim. (ECF
No. 158-17.) On March 27, 2013, they filed the instant
action, alleging that the Defendants violated Section
2607(a) of RESPA.10 (Compl., ECF No. 1.)
The Plaintiffs' Complaint named six Defendants: The
Northrop Team, Creig Northrop, Carla Northrop,
Lakeview Title, Lindell Eagan, and Long & Foster.
(Id.) The Complaint alleged that Creig Northrop, Carla
Northrop, and The Northrop Team—acting as agents
on behalf of Long & Foster—referred the Plaintiffs and
members of the Class exclusively to Defendant
Lakeview Title Company for real estate settlement
services as a quid pro quo for compensation by
Lakeview Title and Lindell Eagan, President of
Lakeview. The Plaintiffs alleged that the Defendants
concealed this quid pro quo or kickback relationship
first through a “sham” employment agreement between
Carla Northrop and Lakeview Title from around 2001
through 2008, and then through the Marketing and
Services Agreement described above from 2008
through 2013.
With respect to the Marketing Agreement, the
Plaintiffs' Complaint alleged that rather than Creig
Northrop and The Northrop Team receiving a flat fee
for marketing services of $6,000 per month from
Lakeview Title, the payments they received actually
fluctuated from $6,000 to $12,000 based on how many
clients
The
Northrop
Team
referred
to
Lakeview.11 Therefore, the Plaintiffs alleged that the

39a
Marketing Agreement was a sham, designed to hide
illegal kickback fees under Section 8(a) of RESPA.
V. This Court’s previous rulings
On May 13, 2013, the Defendants filed two Motions to
Dismiss the Plaintiffs' Complaint on various grounds.
(ECF Nos. 23, 26.) Subsequently, the Plaintiffs filed a
Motion to Amend the Complaint and Motion for Class
Certification. (ECF Nos. 36, 44.) On January 29, 2014,
the Honorable Judge William D. Quarles, Jr. ruled on
the Motions. (ECF Nos. 57, 58; Baehr v. Creig Northrop
Team, P.C., 2014 WL 346635 (D. Md. Jan. 29, 2014).)
The relevant rulings are explained below.12
a. The Plaintiffs adequately alleged that equitable
tolling applied to their RESPA claim
The Defendants moved to dismiss the Complaint on the
ground that the Plaintiffs' claim was barred by
RESPA’s statute of limitations. Baehr, 2014 WL
346635, at *4. As this Court explained, a claim brought
pursuant to Section 8 of REPSA, 12 U.S.C. § 2607, is
subject to a one-year statute of limitations, which may
be equitably tolled. Id. (citing 12 U.S.C. § 2614).
Because the Plaintiffs closed on their home on July 25,
2008 but did not file their Complaint until March 27,
2013, their claim fell well outside the one-year statute
of limitations. Id. To determine whether the Plaintiffs
adequately pled that their claim was entitled to
equitable tolling, this Court applied the following
standard:
To invoke the doctrine of equitable tolling, the
Plaintiffs must show that “(1) the party pleading

40a
the statute of limitations fraudulently concealed
facts that are the basis of the plaintiff’s claim,
and (2) the plaintiff failed to discover those facts
within the statutory period, despite (3) the
exercise of due diligence.”
Id. (citing Minter v. Wells Fargo Bank, N.A., 675
F.Supp.2d 591, 596 (D. Md. 2009) ).13
Applying this standard, this Court held that the
Plaintiffs sufficiently alleged “that the Defendants
engaged in affirmative acts to conceal the kickback
scheme.” 2014 WL 346635, at *5. Specifically, the
Plaintiffs alleged that the Defendants concealed the fact
that the Northrop Defendants were receiving illegal
referral fees by disguising the kickback payments in
the
sham
employment
and
marketing
agreements. Id. Moreover, this Court explained that
whether the Defendants were required to disclose the
“employment or affiliation agreements is irrelevant in
determining whether the Defendants fraudulently
concealed violations of RESPA by entering into sham
agreements. The issue is not whether the agreements
were disclosed, but whether they were created as
shams to hide payments in violation of RESPA.” Id. at
*5 n. 9. Briefly addressing due diligence, this Court
reasoned that reasonable inquiry would not have
revealed the RESPA claim because anyone who
inquired into the agreements would have discovered
only the seemingly valid employment or marketing
agreements. Id. at *5.
b. The Plaintiffs failed to state a claim against Carla
Northrop and Long & Foster

41a
The Defendants also moved to dismiss Long & Foster
and Carla Northrop for failure to state a claim. Baehr,
2014 WL 346635, at *5-6. As to Long & Foster, this
Court held that the Plaintiffs' allegations concerning an
agency relationship between the Northrop Defendants
and Long & Foster were mere legal conclusions and
failed to allege “the basis, nature, or extent of the
relationship.” Id. at *6. As to Carla Northrop, this
Court held that the proposed Amended Complaint
failed to allege that Carla Northrop in fact gave or
accepted a kick back in 2008 when the Baehrs
purchased their home. Id. at *5. Therefore, this Court
dismissed both Long & Foster and Carla Northrop.14
c. Class certification was appropriate, but on
narrower grounds than requested
Turning to the Plaintiffs' Motion for Class Certification,
the Plaintiffs sought to certify the following class:
All Maryland residents who retained Long &
Foster Real Estate, Inc., Creighton Northrop,
III, and the Creig Northrop Team, P.C. to
represent them in the purchase of a primary
residence between January 1, 2000 to present
and settled on the purchase of their primary
residence at Lakeview Title Company, Inc.
(ECF No. 44.)
Analyzing the factors in Federal Rule of Civil
Procedure 23(a), this Court held that the Plaintiffs had
met
the
numerosity
and
commonality
requirements. Baehr, 2014 WL 346635, at *8. As to
typicality, however, this Court held that the Baehrs'

42a
claim was not typical with potential class members'
claims originating between 2000 and 2007, when the
Defendants were allegedly operating their kickback
scheme through Carla Northrop’s employment with
Lakeview Title. Id. at *8-9. Therefore, this Court
redefined the class to only include those class members
who purchased homes beginning in 2008. Id. at *9. This
Court then held that the adequacy prong was met, as
well as the predominance and superiority requirements
of Rule 23(b). Id. at *9-11.
Therefore, this Court certified the following amended
class:
All Maryland residents who retained Long &
Foster Real Estate, Inc., Creighton Northrop,
III, and the Creig Northrop Team, P.C. to
represent them in the purchase of a primary
residence between January 1, 2008 to the
present and settled on the purchase of their
primary residence at Lakeview Title Company,
Inc.
Id. at *11; ECF No. 58. Defining the class in this time
period precluded the Plaintiffs from proceeding with
their claim that Defendants' RESPA violations began
before 2008 through Carla Northrop’s “sham”
employment agreement with Lakeview Title.
Subsequently, the Plaintiffs filed the Operative
Amended Complaint. (ECF No. 89.)
VI. The Defendants' Joint Motion for Summary
Judgment

43a
On June 9, 2015, the Defendants filed a Joint Motion for
Summary Judgment. (ECF No. 158.) The Motion
argues that the Defendants are entitled to judgment as
a matter of law on two grounds: (1) Plaintiffs do not
have Article III standing to bring their Section 8(a)
RESPA claim because they do not satisfied the injury
in fact requirement; and (2) discovery has shown that
the Plaintiffs failed to file this action within RESPA’s
one year statute of limitations, and their claim is not
entitled to equitable tolling.
STANDARD OF REVIEW
Under Federal Rule of Civil Procedure 56(c), a court
must grant summary judgment “if the pleadings,
depositions, answers to interrogatories, and admissions
on file, together with the affidavits, if any, show that
there is no genuine issue as to any material fact and
that the moving party is entitled to judgment as a
matter of law.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 247, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986). A
material fact is one that “might affect the outcome of
the suit under the governing law.” Libertarian Party of
Va. v. Judd, 718 F.3d 308, 313 (4th Cir.
2013) (quoting Anderson, 477 U.S. at 248, 106 S.Ct.
2505). The party seeking summary judgment bears the
initial burden of demonstrating the absence of a
genuine dispute of material fact, Celotex Corp. v.
Catrett, 477 U.S. 317, 323, 106 S.Ct. 2548, 91 L.Ed.2d
265 (1986), and the court must take all facts and
inferences in the light most favorable to the nonmoving party. Scott v. Harris, 550 U.S. 372, 378, 127
S.Ct. 1769, 167 L.Ed.2d 686 (2007).

44a
The party opposing summary judgment must, however,
“do more than simply show that there is some
metaphysical
doubt
as
to
the
material
facts.” Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586, 106 S.Ct. 1348, 89 L.Ed.2d 538
(1986); see also In re Apex Express Corp., 190 F.3d 624,
633 (4th Cir. 1999). The non-movant “ ‘may not rest
upon the mere allegations or denials of [his] pleadings,’
but rather must ‘set forth specific facts showing that
there is a genuine issue for trial.’ ” Bouchat v. Balt.
Ravens Football Club, Inc., 346 F.3d 514, 522 (4th Cir.
2003) (alteration in original) (quoting Fed. R. Civ. P.
56(e) ); see also Adickes v. S. H. Kress & Co., 398 U.S.
144, 160, 90 S.Ct. 1598, 26 L.Ed.2d 142 (1970). A court
should enter summary judgment when a party fails to
make a showing sufficient to establish elements
essential to a party’s case, and on which the party will
bear the burden of proof at trial. Celotex Corp., 477
U.S. at 322-23, 106 S.Ct. 2548.
ANALYSIS
The Plaintiffs argue that the Defendants violated
Section 8(a) of RESPA by using the “sham” Marketing
and Services Agreement between The Northrop Team
and Lakeview Title to disguise an illegal kickback
scheme whereby The Northrop Team received
unearned fees from Lakeview Title in exchange for
referring the class of Plaintiffs to Lakeview Title for
settlement. Specifically, the Plaintiffs assert that half of
the “Title Insurance” Fee on every Plaintiffs' HUD, in
the Baehrs' case the Title Insurance fee of $2,990.00,
was channeled back to The Northrop Team in exchange

45a
for the referral to Lakeview. In their Joint Motion for
Summary Judgment, the Defendants argue that they
are entitled to judgment as a matter of law on
Plaintiffs' claim because the Plaintiffs do not have
standing under Article III of the Constitution, and
discovery has shown that their claim is not entitled to
equitable tolling.
I. The Plaintiffs do not have Article III Standing
Federal jurisdiction under Article III of the United
States Constitution is limited to “Cases” and
“Controversies.” U.S. CONST. ART. III, § 2. “One
element of the case-or-controversy requirement is that
plaintiffs must establish that they have standing to
sue.” Clapper v. Amnesty Int'l USA, 568 U.S. 398, 133
S.Ct. 1138, 185 L.Ed.2d 264 (2013). The “irreducible
minimum requirements” of standing that a plaintiff
bears the burden of establishing are (1) an injury in
fact, (2) that is fairly traceable to the challenged
conduct of the defendant, and (3) that is likely to be
redressed by a favorable judicial decision. Spokeo, Inc.
v. Robinson, ––– U.S. ––––, 136 S.Ct. 1540, 1547, 194
L.Ed.2d 635 (2016) (quoting Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560, 112 S.Ct. 2130, 119 L.Ed.2d
351 (1992) ); David v. Alphin, 704 F.3d 327, 333 (4th Cir.
2013).
It has been long settled “that Congress cannot erase
Article III’s standing requirements by statutorily
granting the right to sue to a plaintiff who would not
otherwise have standing.” Raines v. Byrd, 521 U.S. 811,
820, 117 S.Ct. 2312, 138 L.Ed.2d 849 (1997). The United
States Supreme Court most recently reaffirmed this

46a
principle in Spokeo, Inc. v. Robinson, ––– U.S. ––––, 136
S.Ct. 1540, 194 L.Ed.2d 635 (2016) when explaining that
“Congress' role in identifying and elevating intangible
harms does not mean that a plaintiff automatically
satisfies the injury-in-fact requirement whenever a
statute grants a person a statutory right and purports
to authorize that person to sue to vindicate that
right.” 136 S.Ct. at 1549. Rather, a plaintiff must still
establish “ ‘an invasion of a legally protected interest’
that is ‘concrete and particularized’ and ‘actual or
imminent, not conjectural or hypothetical.’ ” Id. at
1548 (citing Lujan, 504 U.S. at 560, 112 S.Ct. 2130). In
other words, “a bare procedural violation, divorced
from any concrete harm” does not satisfy the injury-infact requirement. Id. at 1549.
The Plaintiffs do not dispute that the $2,990.00 they
paid for Title Insurance to Chicago Title Insurance
Company—which they assert was in some part
channeled back to the Northrop Defendants—was a
reasonable fee to pay for title insurance, and therefore
they were not overcharged for services. Rather, the
Plaintiffs argue that they have standing to bring their
RESPA claim because they were “deprived of impartial
and fair competition between settlement services.”
(Am. Compl., ECF No. 89 at ¶ 23; P. Baehr Dep., ECF
No. 158-4 at 248.) In response, the Defendants argue
that Section 8(a) of RESPA does not protect “impartial
and fair competition” in this context and Plaintiffs did
not suffer a concrete harm under Article III.
In arguing that being deprived of “impartial and fair
competition” is sufficient to establish Article III

47a
standing in this case, the Plaintiffs rely on this Court’s
rulings in Robinson v. Fountainhead Title Group Corp.,
447 F.Supp.2d 478 (D. Md. 2006)and Fangman v.
Genuine Title, LLC, No. RDB-14-0081, 2015 WL
8315704 (D. Md. Dec. 9, 2015). First of all, both of these
cases pre-date the Supreme Court’s ruling in Spokeo.
Secondly, both are distinguishable from the facts of this
case because they involved allegations of overcharging
and the creation of sham companies or a controlled or
affiliated business agreement to assist in the kickback
scheme.
In Robinson, the plaintiff alleged that the defendants
Fountainhead Title Group Corporation, Long & Foster,
and Mid-States Title Insurance Agency, Inc.
established a sham limited liability company, Assurance
Title, LLC, to appear on closing documents for
allegedly completing title services. 447 F.Supp.2d at
485. The plaintiff alleged that in reality, Fountainhead
completed the title services and the fee the borrowers
paid Assurance were channeled to Long & Foster and
Mid-States pursuant to an agreement to refer closing
and settlement services to Fountainhead. Id. at 485-86.
The defendants moved to dismiss, arguing that the
plaintiff was required to allege an “overcharge” in
order to have standing under Section 8(a) of
RESPA. Id. at 486. This Court denied the motion,
holding that the plaintiff had standing first because the
plaintiff had in fact alleged an overcharge. Id. at 488.
Second, this Court relied on RESPA’s legislative
history with respect to concerns regarding controlled
business arrangements to conclude that “in addition to
the overcharges alleged, the alleged § 8(a) violation

48a
presents the possibility for other harm, including a lack
of impartiality in the referral and a reduction of
competition
between
settlement
service
provides.” Id. at 488-89.
Similarly in Fangman v. Genuine Title, LLC, No. RDB14-0081, 2015 WL 8315704 (D. Md. Dec. 9, 2015), the
plaintiffs alleged that the defendant Genuine Title,
LLC, by itself and through sham companies, provided
cash payments and marketing materials to mortgage
brokers who then referred their client to Genuine Title
for settlement services. 2015 WL 8315704, at *1. The
plaintiffs claimed that the cash payments were
concealed from them and not disclosed on their HUD1s, and Genuine Title failed to disclose their affiliated
business relationships. Id. at *3. When the defendants
moved to dismiss for lack of standing, this Court held
that the plaintiffs satisfied the actual injury
requirement when they alleged that “as a result of
Defendants' kickback scheme, they ‘were deprived of
kickback free settlement services and process’ and that
‘[b]ut for’ the kickback scheme, their settlement fees
‘would have been much lower.’ ” Id. at *5.
Unlike in Robinson and Fangman, it is undisputed
from the fully developed record and oral argument at
the hearing of November 20, 2018 that the $2,990.00
figure the Plaintiffs allege was in some part channeled
back to the Northrop Defendants was a reasonable fee
to pay for title insurance. Accordingly, there is no
genuine dispute of material fact that the Plaintiffs were
not in any way overcharged for services due to the
alleged kickback scheme. Therefore, while RESPA was

49a
enacted, in part, to result “in the elimination of
kickbacks or referral fees that tend to increase
unnecessarily the costs of certain settlement services,”
Plaintiffs have not shown that the costs of settlement
services were unnecessarily increased. 12 U.S.C. §
2601(b).
Moreover, it is undisputed that the Defendants did not
create a sham company to orchestrate the alleged
scheme and there was not a controlled or affiliated
business agreement between The Northrop Team and
Lakeview Title. The Plaintiffs repeatedly emphasize
that Lakeview Title was not one of the twelve closing
and title insurance companies listed on Long & Foster’s
ABA Disclosure Statement. However, that was a form
prepared by Long & Foster, not The Northrop Team, in
which the Defendants assert Long & Foster voluntarily
disclosed “business relationships” it had with twelve
closing or title insurance companies. (ECF No. 210-31;
Defs.' Rep., ECF No. 212 at 21.) Second, under RESPA,
neither Long & Foster nor The Northrop Team had an
affiliated business arrangement with Lakeview Title
that required disclosure. RESPA defines an affiliated
business arrangement as:
An arrangement in which (A) a person who is in
a position to refer business incident to or a part
of a real estate settlement service involving a
federally related mortgage loan, or an associate
of such person, has either an affiliate relationship
with or a direct or beneficial ownership interest
of more than 1 percent in a provider of
settlement services; and (B) either of such

50a
persons directly or indirectly refers such
business to that provider or affirmatively
influences the selection of that provider.
12 U.S.C. § 2602(7). RESPA’s controlling regulations
then define “affiliate relationship” as
The relationship among business entities where
one entity has effective control over the other
by virtue of a partnership or other agreement
or is under common control with the other by a
third entity or where an entity is a corporation
related to another corporation as parent to
subsidiary by an identity of stock ownership.
12 C.F.R. § 1024.15(c). The Plaintiffs do not direct this
Court to any evidence that The Northrop Team, or
Long & Foster, had an affiliated business arrangement
under RESPA with Lakeview Title that required
disclosure.15 Accordingly, to the extent this Court
in Robinson and Fangman relied on RESPA’s concerns
regarding
controlled
or
affiliated
business
arrangements, and therefore credited a deprivation of
impartiality and fair competition as a potential injury,
those interests are not at issue here.
Looking at the undisputed facts, Plaintiffs knew at the
time they put an offer in for the Glenwood home that
they could choose their own settlement and title
company. Rather than shop for their own company,
however, they elected to continue with Lakeview Title
even after Maija Dykstra told them that “we do all of
our settlements at Lakeview.” Therefore, despite the
currently alleged interest in “fair and impartial

51a
competition between settlement services,” the
Plaintiffs took no action at the time to find their own
settlement company or inquire further into the
settlement company recommended to them. Moreover,
the Plaintiffs do not claim that they were at all
dissatisfied with the services Lakeview Title provided.
Finally, the Plaintiffs also do not claim that the fees
paid to Lakeview Title, including portions that are
alleged to have been channeled to The Northrop Team,
were unreasonable or undeserved. Plaintiffs chose to
follow the referral to Lakeview Title, were satisfied
with the services they received, and paid a reasonable
fee. In light of all of these undisputed facts, the
Plaintiffs cannot now allege that they satisfy Article
III’s injury in fact requirement because they were
deprived of “impartial and fair competition between
settlement services.”
Finally, although not asserted in the Amended
Complaint, the Plaintiffs also argue in their Response
to the Motion for Summary Judgment that they were
injured because “they paid for a service—the impartial
advice and advocacy of their fiduciaries—that they did
not receive.” (Pls.' Resp., ECF No. 210 at 33.) This
theory, however, also contradicts the undisputed facts
for several reasons. First, Patrick Baehr testified that
he and his wife did not discuss with anyone on The
Northrop Team the topic of finding a settlement and
title company. This was consistent with the Exclusive
Right to Represent Buyer Agreement with Long &
Foster providing that the Baehrs retained Long &
Foster “in the acquisition of real property,” including
“any purchase, option, exchange or lease of property or

52a
an agreement to do so,” and not for any “other
professional service.” (ECF No. 158-8.) Accordingly,
finding a settlement company was not a service the
Plaintiffs actively solicited or bargained for from Long
& Foster or The Northrop Team. Second, before
choosing to continue with Lakeview Title, Maija
Dykstra indicated that a relationship of some nature
existed between The Northrop Team and Lakeview
Title when she stated “we do all of our settlements at
Lakeview.” Still, the Plaintiffs did not inquire into why
The Northrop Team always referred settlements to
Lakeview Title or in any way inquired into the referral.
Finally, by electing to proceed with Lakeview Title, the
Plaintiffs received settlement services they were
satisfied with and thought deserved to be compensated.
Therefore, the Plaintiffs cannot now assert that they
relied on, or were injured by a deprivation of,
“impartial advice and advocacy” with respect to the
Lakeview Title referral.16
For all of these reasons, there is no genuine dispute of
material fact that the Plaintiffs assert only “a bare
procedural violation, divorced from any concrete harm”
and do not satisfy the injury-in-fact requirement of
Article III Standing. Accordingly, Plaintiffs do not have
standing to bring their claim, and for this reason alone
the Defendants' Joint Motion for Summary Judgment is
GRANTED.
II. Alternatively, Plaintiffs' claim is barred by
RESPA’s statute of limitations
Claims brought pursuant to Section 8 of REPSA, 12
U.S.C. § 2607, are subject to a one year statute of

53a
limitations. Specifically, claims brought under Section 8
must be asserted within one year “from the date of the
occurrence of the violation.” 12 U.S.C. § 2614. In this
case, the date of the occurrence of the violation refers
to the date the Plaintiffs closed on their home, July 25,
2008. Fangman v. Genuine Title, LLC, No. CV RDB14-0081, 2016 WL 6600509, at *4 (D. Md. Nov. 8,
2016) (quoting Grant v. Shapiro & Burson, LLP, 871
F.Supp.2d 462, 470 (D. Md. 2012) ). Because the Named
Plaintiffs did not file suit until March 27, 2013, their
claim falls outside of the one year statute of limitations.
As this Court has consistently held, however, claims
brought
under
RESPA
may
be
equitably
tolled. Fangman v. Genuine Title, LLC, No. CV RDB14-0008, 2015 WL 8315704, at *7 (D. Md. Dec. 9,
2015) (citing United States v. Kwai Fun Wong, ––– U.S.
––––, 135 S.Ct. 1625, 1630, 191 L.Ed.2d 533
(2015); Grant v. Shapiro & Burson, LLP, et al., 871
F.Supp.2d 462, 470 n.10 (D. Md. 2012) ); Bezek v. First
Mariner Bank, 293 F.Supp.3d 528, 534 (D. Md. 2018).
In Menominee Indian Tribe of Wisconsin v. United
States, ––– U.S. ––––, 136 S.Ct. 750, 193 L.Ed.2d 652
(2016), a unanimous United States Supreme Court held
that equitable tolling requires the plaintiff to establish
two elements: “(1) that he has been pursuing his rights
diligently, and (2) that some extraordinary
circumstance stood in his way and prevented timely
filing.” 136 S.Ct. at 755 (quoting Holland v. Florida, 560
U.S. 631, 649, 130 S.Ct. 2549, 177 L.Ed.2d 130
(2010) ); see also Cunningham v. Commissioner of
Internal Revenue, No. 17-1433, 716 F. App'x 182 (4th
Cir. Jan. 18, 2018). The Supreme Court emphasized

54a
these two requirements as distinct elements, “not
merely factors of indeterminate or commensurable
weight.” 136
S.Ct.
at
756 (citing Pace
v.
DiGuglielmo, 544 U.S. 408, 418, 125 S.Ct. 1807, 161
L.Ed.2d 669 (2005) ). Accordingly, an insufficient
showing of either diligence or extraordinary
circumstances is fatal to a claim for equitable
tolling. SeeLawrence v. Florida, 549 U.S. 327, 127 S.Ct.
1079, 166 L.Ed.2d 924 (2007) (holding that equitable
tolling did not apply solely because the petitioner “fell
far short of showing extraordinary circumstances”).
The extraordinary circumstance element “is met only
where the circumstances that caused a litigant’s delay
are
both
extraordinary and beyond
its
control.” Menominee, 136 S.Ct. at 756 (emphasis in
original). In other words, the circumstances must
combine
to
render
“critical
information
...
undiscoverable.” Gould v. U.S. H.H.S, 905 F.2d 738,
745–46 (4th Cir. 1990) (en banc). While courts have
consistently held that fraudulent concealment by the
defendant is a circumstance that may justify equitable
tolling, see e.g., Supermarket of Marlinton, Inc. v.
Meadow Gold Dairies, Inc., 71 F.3d 119, 122 (4th Cir.
1995); Grant v. Shapiro & Burson, LLP, 871 F.Supp.2d
462, 470 n.10 (D. Md. 2012), a RESPA violation in and of
itself, is not a “self-concealing” wrong. Minter v. Wells
Fargo Bank, N.A., 924 F.Supp.2d 627, 642 (D. Md.
2013).
As to due diligence, the Supreme Court has held that
“the diligence prong ... covers those affairs within the
litigant’s control.” Menominee Indian Tribe of

55a
Wisconsin v. United States, ––– U.S. ––––, 136 S.Ct.
750, 756, 193 L.Ed.2d 652 (2016). This element requires
“reasonable diligence,” not “maximum feasible
diligence.” Holland v. Florida, 560 U.S. 631, 653, 130
S.Ct. 2549, 177 L.Ed.2d 130 (2010). In Go Computer,
Inc. v. Microsoft Corp., 508 F.3d 170 (4th Cir. 2007), the
United States Court of Appeals for the Fourth Circuit
explained that in the context of fraud:
To be sure, a diligent plaintiff need not engage in
ceaseless inquiry when reasonable inquiry does
not expose grounds for suit. But nothing
in Supermarket of Marlinton[, 71 F.3d 119 (4th
Cir. 1995) ] excuses a negligent plaintiff from the
diligence requirement—not even if a fraud is
allegedly well-disguised. Fraud by its nature is
something perpetrators take pains to disguise,
and plaintiffs' notion that allegedly concealed
fraud excuses the need for any diligence on
plaintiffs' part would permit statutory periods to
be tolled indefinitely, even when plaintiffs could
reasonably be expected to bring suit.
508 F.3d at 179.17
The Fourth Circuit has emphasized that “equitable
tolling is appropriate ‘in those rare instances where—
due to circumstances external to the party’s own
conduct—it would be unconscionable to enforce the
limitation period against the party and gross injustice
would result.’ ” Cunningham, 716 F. App'x 182 at
184 (internal
quotation
marks
omitted)
(quoting Whiteside v. United States, 775 F.3d 180, 184
(4th Cir. 2014) (en banc) ). Accordingly, federal courts

56a
employ equitable tolling “sparingly,” Irwin v. Dep't of
Veterans Affairs, 498 U.S. 89, 96, 111 S.Ct. 453, 112
L.Ed.2d 435 (1990), as “a rare remedy to be applied in
unusual circumstances.” Wallace v. Kato, 549 U.S. 384,
396, 127 S.Ct. 1091, 166 L.Ed.2d 973 (2007).
The Plaintiffs assert that the Defendants violated
Section 8(a) of RESPA by orchestrating a scheme
whereby
The
Northrop
Defendants
received
approximately half of the Title Insurance fee listed on
each of the Plaintiffs' HUD-1 in unearned fees for
referring the Plaintiffs to Lakeview Title for
settlement. The Plaintiffs argue that their claim is
entitled to equitable tolling because the Defendants
fraudulently concealed this kickback scheme through
the Marketing and Services Agreement which The
Northrop Team did not disclose to the Plaintiffs.
Moreover, the Plaintiffs assert that even if the
Defendants had disclosed the Agreement, the Plaintiffs
would have only discovered a seemingly valid
arrangement between The Northrop Team and
Lakeview Title. Under these circumstances, the
Plaintiffs argue they exercised reasonable diligence and
therefore their claim is entitled to equitable tolling. As
explained below, while, like this Court noted in Bezek v.
First Mariner Bank, 293 F.Supp.3d 528, 540 (D. Md.
2018), the class of Plaintiffs “may have some interest in
accountability and financial compensation, Congress
firmly expressed an interest in providing certainty to
the real estate market when it set the RESPA statute
of limitations at one year,” and the Plaintiffs have not
established that their claim is entitled to equitable
tolling.

57a
On the issue of whether the Defendants concealed the
Marketing Agreement, Defendants present this Court
with ample testimony that both The Northrop Team
and Lakeview Employees were aware of the Marketing
Agreement. Defendant Lindell Eagan, Corporate
Designee for Lakeview Title Company, testified that
Lakeview Title freely admitted to having a Marketing
Agreement with The Northrop Team, although it was
not practice to disclose the terms of the
agreement. (ECF No. 158-18 at 157.) Kevin Yungman, a
closing attorney for Lakeview from 2005 through
September of 2014, testified that “it was common
knowledge that Lakeview had some type of relationship
with The Northrop Team” and he had “dozens” of
communications with persons outside of the Northrop
Team or Lakeview regarding the Marketing
Agreements. (ECF No. 158-19 at 179, 181.) The
Defendants also cite to several other Lakeview and
Northrop employees who knew about the marketing
relationship between The Northrop Team and
Lakeview Title. (Barbara Cohn Dep., ECF No. 158-21
at 36; Tracy Cotty Dep., ECF No. 158-23 at 44-45.)
Moreover, the Defendants challenge the Plaintiffs'
argument that the Defendants actively concealed the
kickback scheme through the Marketing Agreement
when the Plaintiffs never inquired into, or were aware
of, the Marketing Agreement itself. (Defs.' Rep., ECF
No. 212 at 15.)
Even assuming, however, that the Defendants did
fraudulently conceal the kickback scheme, there is no
genuine issue of material fact that the Plaintiffs failed
to exercise reasonable diligence to discover their claim.

58a
The month the Beahrs closed on their home, they knew
that they could choose their own settlement and title
company. Despite knowing this, and the fact that they
now claim that “impartial and fair competition between
settlement services” was an important interest to them,
the Plaintiffs did not take any action to find their own
settlement and title company. Rather, before the
Plaintiffs closed on their home, Dykstra informed them
that Lakeview Title would handle their settlement.
Moreover, she stated “we do all of our settlements at
Lakeview.” (ECF No. 158-4 at 139.)
Notwithstanding the apparent existence of a business
relationship between The Northrop Team and
Lakeview Title, the Plaintiffs did not at all inquire
about a potential relationship between Lakeview and
The Northrop Team. Rather, they elected to use
Lakeview without objection or further inquiry.
Accordingly, in light of a potential relationship between
Lakeview and The Northrop Team—which the
Plaintiffs repeatedly emphasize was not disclosed to the
Plaintiffs on Long & Foster’s ABA Disclosure
Statement—the Plaintiffs took no steps to investigate
the propriety of such a relationship. Even after closing
on their homes, the named Plaintiffs and other
members of the class went more than four and a half
years satisfied with the services they received from
Long & Foster, The Northrop Team, and Lakeview
Title, and content with the fees they paid each party.
Had they inquired into that relationship, Lindell Eagan,
along with multiple Lakeview and The Northrop Team
employees, testified that Lakeview and the other
parties freely admitted to having the Marketing

59a
Agreement. (Eagan Dep., ECF No. 158-18 at 157;
Yungman Dep., ECF No. 158-19 at 179-81.)
The Plaintiffs then argue, however, that the relevant
inquiry is not whether the Plaintiffs were aware of a
relationship between Lakeview Title and The Northrop
Team or the Marketing Agreement, but whether they
were aware of the kickbacks. On this note, the Plaintiffs
assert that “[t]he Marketing Agreement was designed
to look legitimate, so it would not have caused a
reasonable person to inquire further, even if the
Plaintiffs had known about it.” (ECF No. 210 at 16.)
This assertion contradicts, however, the Plaintiffs'
argument that the Marketing Agreement was clearly a
sham for the kickbacks.
The Plaintiffs argue that “the Marketing Agreement
itself reveals that it was created solely to conceal the
kickbacks.” (Pls.' Resp., ECF No. 210 at 20.) They
emphasize the fact that the Marketing Agreement
begins with the requirement that The Northrop Team
refer its clients exclusively to Lakeview, “but then later
disclaims any relationship between these referrals and
the monthly payments.” (Id. (citing ECF No. 210-10 at
¶¶ 2.1, 6.1).) Moreover, the Plaintiffs assert that the
Marketing Agreement only provided for “unspecified
‘marketing services.’ ” (Id. at ¶ 7 (citing ECF No. 210 at
¶ 2.1).) Specifically, the Plaintiffs emphasize that the
Marketing Agreement “made no requirements
concerning the placement, circulation, volume, size, or
medium of the supported advertising.” (Id. at ¶ 8.)
Rather, the only requirement the Marketing
Agreement did include was that The Northrop Team

60a
website provide a link to Lakeview, which the Plaintiffs
assert was not done until well after this action was
filed. (Id.) Accordingly, on the one hand, the Plaintiffs
argue that had the Plaintiffs discovered the Marketing
Agreement, they would not have had reason to inquire
further, but on the other hand, argue that the
Marketing Agreement was clearly a sham on its face for
the above reasons.
The Plaintiffs also argue that the Plaintiffs were
entitled to relax their guard because The Northrop
Defendants were their fiduciaries, and therefore “the
Plaintiffs were permitted to rely on their fiduciaries
and not undertake additional inquiry until something
excited them to inquire.” (Pls.' Resp., ECF No. 210 at
26-28.) This Court cannot ignore, however, that when
Patrick Baehr was asked during his deposition whether
he believed that the Defendants did anything to
affirmatively prevent him from discovering his RESPA
claim or otherwise concealed his RESPA claim, he
responded “no.” (ECF No. 158-4 at 214.) In response to
“what efforts did you make to discover your claim after
you closed on your home in 2008?” he testified “none.”
(Id. at 206.) Accordingly, even if there were merit to
the Plaintiffs' claim that, in this context, the Plaintiffs
could “relax [their] guard and rely upon the
representations by the other in whom they have placed
their confidence” with respect to the Lakeview Title
referral, (Pls.' Resp., ECF No. 210 at 27 (citing Brown
v. Neuberger, Quinn, Gielen, Rubin & Gibber, P.A., 731
F.Supp.2d 443 (D. Md. 2010), aff'd, 495 F. App'x 350
(4th Cir. 2012) ) ),18 the Plaintiffs—through the
undisputed record and Patrick Baehrs' own

61a
testimony—exercised no diligence whatsoever despite
the apparent existence of a business relationship
between The Northrop Team and Lakeview Title.
When enacting RESPA, Congress specifically provided
that the statute of limitations period would begin to run
on “the date of the occurrence of the violation.” 12
U.S.C. § 2614. Courts cannot “toll indefinitely the
limitations period for claims under RESPA until a
lawyer can find the right plaintiff to join a lawsuit and
notify other putative plaintiffs” because doing so
“would effectively write the statute of limitations out of
RESPA.” Cunningham v. M&T Bank Corp., 814 F.3d
156, 164 (3d Cir. 2016). Plaintiffs have not demonstrated
that their case presents the “rare instance” where
enforcing RESPA’s statute of limitations would be
unconscionable. Therefore, even if the Plaintiffs had
standing to bring their claim, the claim would be barred
by the statute of limitations and equitable tolling does
not apply.
CONCLUSION
For the reasons stated above, Defendants' Joint Motion
for Summary Judgment (ECF No. 158) is GRANTED
and Judgment is ENTERED in favor of Defendants. A
separate order follows.
Footnotes
1As noted infra Note 10, this case has been previously
assigned to four other Judges of this Court. It was
assigned to the undersigned on November 30, 2017 and
discovery was ultimately completed giving rise to the
filing of dispositive motions.

62a
2Accordingly, Plaintiffs' Motion to Revise Judgment
and for Leave to file a Second Amended Complaint
(ECF No. 160) and Plaintiffs' Motion to Modify the
Class (ECF No. 228) are MOOT.
3The other purposes of RESPA include effecting
certain changes to result in: “more effective advance
disclosure to home buyers and sellers of settlement
costs,” “a reduction in the amounts home buyers are
required to place in escrow accounts established to
insure the payment of real estate taxes and insurance,”
and “significant reform and modernization of local
recordkeeping of land title information.” 12 U.S.C. §
2601(b).
4Under Maryland state law, all real estate agents must
be licensed and affiliated with a licensed real estate
brokerage for the purpose of providing real estate
brokerage services. See Md. Code. Ann., Bus. Occ. &
Prof., § 17-310(b) (salespersons must be affiliated with a
real estate brokerage that is headed by a broker, and
offer real estate brokerage services through that
brokerage).
5“P. Baehr Dep.” refers to the deposition testimony of
Plaintiff Patrick Baehr while “C. Baehr Dep.” refers to
the deposition testimony of Plaintiff Christine Baehr.
6As explained in more detail below, RESPA permits
affiliated business arrangements so long as certain
conditions are met, including disclosure of the existence
of such an arrangement to the person being referred. 12
U.S.C. § 2607(c). RESPA defines an ABA as “an
arrangement in which (A) a person who is in a position

63a
to refer business incident to or a part of a real estate
settlement service involving a federally related
mortgage loan, or an associate of such person, has
either an affiliate relationship with or a direct or
beneficial ownership interest of more than 1 percent in
a provider of settlement services; and (B) either of such
persons directly or indirectly refers such business to
that provider or affirmatively influences the selection of
that provider.” Id. at § 2602(7).
7Specifically, the form stated that Long & Foster had
business relationships with the following companies to
close a purchase or sale and/or for title insurance:
RGS Title and/or its affiliate Mid-States Title of
Virginia, LLC
Brennan Title Company and/or its affiliate
Positive Title, LLC
MBH Settlement Group LC and/or its affiliate
Eastern Title LLC
Saga Title Group, LLC
Settlement Professionals, LLC
Bon Air Title and/or its affiliate Bon Air/Long &
Foster Title Agency, LLC
Shaheen & Shaheen and/or its affiliate Long &
Foster Great American Title, LLC
Shaffer Title & Escrow Inc. and/or its affiliate
Long & Foster Shaffer Title Services, LLC

64a
Homestead Settlement Services, LLC and/or its
affiliate Mid-States Title of Roanoke, LLC
Mid States Title of Southwest Virginia, LLC
Trump & Trump and/or its affiliate Long 7
Foster of WV Title Insurance Agency, LLC
Long & Foster Settlement Services, LLC
8Specifically, in 2000 the Baehrs purchased a home for
around $310,000 and paid $375 to the title company
Residential Title & Escrow Company. (ECF No. 158-4
at 229, 230.)
9The HUD-1 Settlement Statement is a standard form
indicating fees charged to a borrower by a mortgage
lender or broker.
10Since this case was initially assigned to Judge Bredar
on March 27, 2013, it has been subsequently reassigned
to Judge Nickerson that same day, to Judge Quarles on
May 6, 2013, to Judge Motz on January 27, 2016, to
Judge Russell on October 13, 2016, and finally to the
undersigned on November 30, 2017.
11As explained below, the Plaintiffs now assert that
discovery has shown that the kickback The Northrop
Team received for referrals to Lakeview Title was 50%
of the title insurance premium. In the Baehrs' case, that
was around $1,495. (Pls' Opp., ECF No. 210 at ¶ 18.)
12In addition to the rulings described below, this Court
also held that the Plaintiffs adequately pled a claim
against Lindell Eagan.

65a
13This standard for equitable tolling pre-dated the
Supreme Court’s current equitable tolling standard
announced in Menominee Indian Tribe of Wisconsin v.
United States, ––– U.S. ––––, 136 S.Ct. 750, 193 L.Ed.2d
652 (2016).
14Although nothing in this Court’s Order indicates that
the dismissals were with prejudice, the parties
assumed—and in a subsequent Opinion this Court
indicated—that
the
dismissals
were
with
prejudice. See Baehr v. Creig Northrop Team, P.C.,
2014 WL 3725906, at *4 (D. Md. July 24, 2014) (“The
Plaintiffs seek to amend the Court’s dismissal of the
claim against Long & Foster to be without prejudice.”)
Subsequently, on February 13 and 14, 2014, the
Plaintiffs filed Motions to file a Second Amended
Complaint and to Alter/Amend Judgment, seeking to
(1) amend this Court’s dismissal of the claim against
Long & Foster to be without prejudice and (2) filed a
second amended complaint to add specific factual
allegations against Long & Foster. (ECF Nos. 65, 66.)
Judge Quarles denied both Motions, again holding that
Plaintiffs failed to state a claim against Long & Foster.
(ECF Nos. 84, 85; Baehr v. Creig Northrop Team, P.C.,
2014 WL 3725906 (D. Md. July 24, 2014).)
15Rather, the Plaintiffs direct this Court to an email
sent to “executives@northropteam.com” which included
an internal memo that referred to Lakeview Title as an
“affiliate.” (ECF No. 210-32.) This internal reference to
Lakeview Title as an “affiliate,” however, is insufficient
to establish a genuine issue of material fact that The
Northrop Team had “either an affiliate relationship

66a
with” as defined by 12 C.F.R. § 1025.14(c) above, or “a
direct or beneficial ownership interest of more than 1
percent in” Lakeview Title. 12 U.S.C. § 2602(7).
16The Plaintiffs also argue that they “did not receive a
title fee discount that they were entitled to” and under
a theory of unjust enrichment, the Plaintiffs are
entitled to the amount that the Defendants were
unjustly enriched by with the referral to Lakeview.
(Pls' Resp., ECF No. 210 at 33-34.) Beginning with the
former theory, the Plaintiffs rely on Gussin v. Shockey,
725 F.Supp. 271, 275 (D. Md. 1989), aff'd, 933 F.2d 1001
(4th Cir. 1991). In that case, however, this Court
granted summary judgment for the plaintiffs on their
claim that the defendant violated implied fiduciaries
duties as the plaintiffs' agent when he “advised them to
pay prices for horses that included a secret benefit for
himself and that was in excess of the price for which he
could
have
purchased
the
horses for
the
[plaintiffs].” 725 F.Supp. at 275 (emphasis added). Here,
even if the Plaintiffs had shown that The Northrop
Team owed the Plaintiffs a fiduciary duty with respect
to referral of settlement services, there is no allegation
of overcharging. As to the former theory under unjust
enrichment, this theory again relies on the underlying
argument that the Plaintiffs paid The Northrop Team
for “impartial advice and advocacy” with respect to
obtaining settlement services, which this Court rejects
as explained above. Moreover, unjust enrichment is an
independent cause of action which is not permitted
under RESPA. See, e.g., Minter v. Wells Fargo Bank,
N.A., 593 F.Supp.2d 788 (D. Md. 2009); Eslick v.
Cenlar, Central Loan Administration and Reporting,

67a
No. 2:17-cv-381, 2017 WL 4836541 (E.D. Va. Oct. 3,
2017).
17Although Go Computer was decided in the context of
the statute of limitations for federal antitrust claims,
like RESPA, that statute of limitations bars any action
“unless commenced within four years after the cause of
action accrued,” which is not when a plaintiff discovers
an injury, but “when a defendant commits an actthat
injures a plaintiff’s business.” 508 F.3d at 173 (citations
omitted) (emphasis added).
18Both Brown and the other case the Plaintiffs cite
to, Frederick Road Ltd. Partnership v. Brown &
Sturm, 360 Md. 76, 99, 756 A.2d 963 (Md. 2000),
involved Maryland state law’s “continuation of events
theory,” which specifically permits a statute of
limitations to be tolled during the existence of a
fiduciary or confidential relationship. Brown, 731
F.Supp.2d at 451 (citing MacBridge v. Pishvaian, 402
Md. 572, 937 A.2d 233 (Md. 2007) ); Frederick Road Ltd.
Partnership, 360 Md. at 96-97, 756 A.2d 963 (citing W.,
B. & A. Elec. R.R. Co. v. Moss, 130 Md. 198, 100 A. 86
(Md. 1917) ).

68a
FILED: May 12, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 19-1024
(1:13-cv-00933-RDB)
___________________
PATRICK BAEHR; CHRISTINE BAEHR
Plaintiffs - Appellants
v.
THE CREIG NORTHROP TEAM, P.C.;
CREIGHTON EDWARD NORTHROP, III;
LINDELL C. EAGAN; LAKEVIEW TITLE
COMPANY, INC.
Defendants - Appellees
and
CARLA NORTHROP; LONG & FOSTER REAL
ESTATE, INC.
Defendants
___________________
ORDER
___________________

69a
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.
Entered at the direction of the panel: Chief Judge
Gregory, Judge King, and Judge
Quattlebaum.
For the Court
/s/ Patricia S. Connor, Clerk

70a
12 U.S.C.A. § 2601
§ 2601. Congressional findings and purpose
(a) The Congress finds that significant reforms in the
real estate settlement process are needed to insure that
consumers throughout the Nation are provided with
greater and more timely information on the nature and
costs of the settlement process and are protected from
unnecessarily high settlement charges caused by
certain abusive practices that have developed in some
areas of the country. The Congress also finds that it has
been over two years since the Secretary of Housing and
Urban Development and the Administrator of
Veterans’ Affairs submitted their joint report to the
Congress on “Mortgage Settlement Costs” and that the
time has come for the recommendations for Federal
legislative action made in that report to be
implemented.
(b) It is the purpose of this chapter to effect certain
changes in the settlement process for residential real
estate that will result-(1) in more effective advance disclosure to home
buyers and sellers of settlement costs;
(2) in the elimination of kickbacks or referral fees that
tend to increase unnecessarily the costs of certain
settlement services;
(3) in a reduction in the amounts home buyers are
required to place in escrow accounts established to
insure the payment of real estate taxes and insurance;
and
(4) in significant reform and modernization of local
recordkeeping of land title information.

71a
12 U.S.C.A. § 2602
§ 2602. Definitions
Effective: July 21, 2011
For purposes of this chapter-(1) the term “federally related mortgage loan”
includes any loan (other than temporary financing
such as a construction loan) which-(A) is secured by a first or subordinate lien on
residential real property (including individual units
of condominiums and cooperatives) designed
principally for the occupancy of from one to four
families, including any such secured loan, the
proceeds of which are used to prepay or pay off an
existing loan secured by the same property; and
(B)(i) is made in whole or in part by any lender the
deposits or accounts of which are insured by any
agency of the Federal Government, or is made in
whole or in part by any lender which is regulated by
any agency of the Federal Government, or
(ii) is made in whole or in part, or insured,
guaranteed, supplemented, or assisted in any way,
by the Secretary or any other officer or agency of
the Federal Government or under or in connection
with a housing or urban development program
administered by the Secretary or a housing or
related program administered by any other such
officer or agency; or
(iii) is intended to be sold by the originating lender
to the Federal National Mortgage Association, the
Government National Mortgage Association, the
Federal Home Loan Mortgage Corporation, or a
financial institution from which it is to be purchased
by the Federal Home Loan Mortgage Corporation;

72a
or
(iv) is made in whole or in part by any “creditor”, as
defined in section 1602(f) of Title 15, who makes or
invests in residential real estate loans aggregating
more than $1,000,000 per year, except that for the
purpose of this chapter, the term “creditor” does
not include any agency or instrumentality of any
State;
(2) the term “thing of value” includes any payment,
advance, funds, loan, service, or other consideration;
(3) the term “settlement services” includes any
service provided in connection with a real estate
settlement including, but not limited to, the following:
title searches, title examinations, the provision of title
certificates, title insurance, services rendered by an
attorney, the preparation of documents, property
surveys, the rendering of credit reports or appraisals,
pest and fungus inspections, services rendered by a
real estate agent or broker, the origination of a
federally related mortgage loan (including, but not
limited to, the taking of loan applications, loan
processing, and the underwriting and funding of
loans), and the handling of the processing, and closing
or settlement;
(4) the term “title company” means any institution
which is qualified to issue title insurance, directly or
through its agents, and also refers to any duly
authorized agent of a title company;
(5) the term “person” includes individuals,
corporations, associations, partnerships, and trusts;
(6) the term “Secretary” means the Secretary of
Housing and Urban Development;
(7) the term “affiliated business arrangement” means
an arrangement in which (A) a person who is in a
position to refer business incident to or a part of a

73a
real estate settlement service involving a federally
related mortgage loan, or an associate of such person,
has either an affiliate relationship with or a direct or
beneficial ownership interest of more than 1 percent
in a provider of settlement services; and (B) either of
such persons directly or indirectly refers such
business to that provider or affirmatively influences
the selection of that provider;
(8) the term “associate” means one who has one or
more of the following relationships with a person in a
position to refer settlement business: (A) a spouse,
parent, or child of such person; (B) a corporation or
business entity that controls, is controlled by, or is
under common control with such person; (C) an
employer, officer, director, partner, franchisor, or
franchisee of such person; or (D) anyone who has an
agreement, arrangement, or understanding, with
such person, the purpose or substantial effect of
which is to enable the person in a position to refer
settlement business to benefit financially from the
referrals of such business; and
(9) the term “Bureau” means the Bureau of Consumer
Financial Protection.
12 U.S.C.A. § 2607
§ 2607. Prohibition against kickbacks and unearned
fees
Effective: July 21, 2011
(a) Business referrals
No person shall give and no person shall accept any fee,
kickback, or thing of value pursuant to any agreement
or understanding, oral or otherwise, that business
incident to or a part of a real estate settlement service
involving a federally related mortgage loan shall be
referred to any person.

74a
(b) S plitting charges
No person shall give and no person shall accept any
portion, split, or percentage of any charge made or
received for the rendering of a real estate settlement
service in connection with a transaction involving a
federally related mortgage loan other than for services
actually performed.
(c) Fees, salaries, compensation, or other payments
Nothing in this section shall be construed as prohibiting
(1) the payment of a fee (A) to attorneys at law for
services actually rendered or (B) by a title company to
its duly appointed agent for services actually performed
in the issuance of a policy of title insurance or (C) by a
lender to its duly appointed agent for services actually
performed in the making of a loan, (2) the payment to
any person of a bona fide salary or compensation or
other payment for goods or facilities actually furnished
or for services actually performed, (3) payments
pursuant to cooperative brokerage and referral
arrangements or agreements between real estate
agents
and
brokers,
(4)
affiliated
business
arrangements so long as (A) a disclosure is made of the
existence of such an arrangement to the person being
referred and, in connection with such referral, such
person is provided a written estimate of the charge or
range of charges generally made by the provider to
which the person is referred (i) in the case of a face-toface referral or a referral made in writing or by
electronic media, at or before the time of the referral
(and compliance with this requirement in such case may
be evidenced by a notation in a written, electronic, or
similar system of records maintained in the regular
course of business); (ii) in the case of a referral made by
telephone, within 3 business days after the referral by
telephone,1 (and in such case an abbreviated verbal

75a
disclosure of the existence of the arrangement and the
fact that a written disclosure will be provided within 3
business days shall be made to the person being
referred during the telephone referral); or (iii) in the
case of a referral by a lender (including a referral by a
lender to an affiliated lender), at the time the estimates
required under section 2604(c) of this title are provided
(notwithstanding clause (i) or (ii)); and any required
written receipt of such disclosure (without regard to
the manner of the disclosure under clause (i), (ii), or
(iii)) may be obtained at the closing or settlement
(except that a person making a face-to-face referral who
provides the written disclosure at or before the time of
the referral shall attempt to obtain any required
written receipt of such disclosure at such time and if the
person being referred chooses not to acknowledge the
receipt of the disclosure at that time, that fact shall be
noted in the written, electronic, or similar system of
records maintained in the regular course of business by
the person making the referral), (B) such person is not
required to use any particular provider of settlement
services, and (C) the only thing of value that is received
from the arrangement, other than the payments
permitted under this subsection, is a return on the
ownership interest or franchise relationship, or (5) such
other payments or classes of payments or other
transfers as are specified in regulations prescribed by
the Bureau, after consultation with the Attorney
General, the Secretary of Veterans Affairs, the Federal
Home Loan Bank Board, the Federal Deposit
Insurance Corporation, the Board of Governors of the
Federal Reserve System, and the Secretary of
Agriculture. For purposes of the preceding sentence,
the following shall not be considered a violation of
clause (4)(B): (i) any arrangement that requires a buyer,

76a
borrower, or seller to pay for the services of an
attorney, credit reporting agency, or real estate
appraiser chosen by the lender to represent the
lender’s interest in a real estate transaction, or (ii) any
arrangement where an attorney or law firm represents
a client in a real estate transaction and issues or
arranges for the issuance of a policy of title insurance in
the transaction directly as agent or through a separate
corporate title insurance agency that may be
established by that attorney or law firm and operated
as an adjunct to his or its law practice.
(d) Penalties for violations; joint and several
liability; treble damages; actions for injunction by
Bureau and Secretary and by State officials; costs
and attorney fees; construction of State laws
(1) Any person or persons who violate the provisions of
this section shall be fined not more than $10,000 or
imprisoned for not more than one year, or both.
(2) Any person or persons who violate the prohibitions
or limitations of this section shall be jointly and
severally liable to the person or persons charged for the
settlement service involved in the violation in an
amount equal to three times the amount of any charge
paid for such settlement service.
(3) No person or persons shall be liable for a violation of
the provisions of subsection (c)(4)(A) if such person or
persons proves by a preponderance of the evidence that
such violation was not intentional and resulted from a
bona fide error notwithstanding maintenance of
procedures that are reasonably adapted to avoid such
error.
(4) The Bureau, the Secretary, or the attorney general
or the insurance commissioner of any State may bring
an action to enjoin violations of this section. Except, to
the extent that a person is subject to the jurisdiction of

77a
the Bureau, the Secretary, or the attorney general or
the insurance commissioner of any State, the Bureau
shall have primary authority to enforce or administer
this section, subject to subtitle B of the Consumer
Financial Protection Act of 2010.
(5) In any private action brought pursuant to this
subsection, the court may award to the prevailing party
the court costs of the action together with reasonable
attorneys fees.
(6) No provision of State law or regulation that imposes
more stringent limitations on affiliated business
arrangements shall be construed as being inconsistent
with this section.
12 C.F.R. § 1024.15
§ 1024.15 Affiliated business arrangements.
Effective: December 30, 2011
(a) General. An affiliated business arrangement is
defined in section 3(7) of RESPA (12 U.S.C. 2602(7)).
(b) Violation and exemption. An affiliated business
arrangement is not a violation of section 8 of RESPA
(12 U.S.C. 2607) and of § 1024.14 if the conditions set
forth in this section are satisfied. Paragraph (b)(1) of
this section shall not apply to the extent it is
inconsistent with section 8(c)(4)(A) of RESPA (12
U.S.C. 2607(c)(4)(A)).
(1) The person making each referral has provided to
each person whose business is referred a written
disclosure, in the format of the Affiliated Business
Arrangement Disclosure Statement set forth in
appendix D of this part, of the nature of the
relationship (explaining the ownership and financial
interest) between the provider of settlement
services (or business incident thereto) and the

78a
person making the referral and of an estimated
charge or range of charges generally made by such
provider (which describes the charge using the
same terminology, as far as practical, as section L of
the HUD–1 settlement statement). The disclosures
must be provided on a separate piece of paper no
later than the time of each referral or, if the lender
requires use of a particular provider, the time of
loan application, except that:
(i) Where a lender makes the referral to a borrower,
the condition contained in paragraph (b)(1) of this
section may be satisfied at the time that the good
faith estimate or a statement under § 1024.7(d) is
provided; and
(ii) Whenever an attorney or law firm requires a
client to use a particular title insurance agent, the
attorney or law firm shall provide the disclosures no
later than the time the attorney or law firm is
engaged by the client.
(iii) Failure to comply with the disclosure
requirements of this section may be overcome if the
person making a referral can prove by a
preponderance of the evidence that procedures
reasonably adopted to result in compliance with
these conditions have been maintained and that any
failure to comply with these conditions was
unintentional and the result of a bona fide error. An
error of legal judgment with respect to a person’s
obligations under RESPA is not a bona fide error.
Administrative and judicial interpretations of
section 130(c) of the Truth in Lending Act shall not
be binding interpretations of the preceding
sentence or section 8(d)(3) of RESPA (12 U.S.C.
2607(d)(3)).
(2) No person making a referral has required (as

79a
defined in § 1024.2, “required use”) any person to
use any particular provider of settlement services
or business incident thereto, except if such person is
a lender, for requiring a buyer, borrower or seller to
pay for the services of an attorney, credit reporting
agency, or real estate appraiser chosen by the
lender to represent the lender’s interest in a real
estate transaction, or except if such person is an
attorney or law firm for arranging for issuance of a
title insurance policy for a client, directly as agent
or through a separate corporate title insurance
agency that may be operated as an adjunct to the
law practice of the attorney or law firm, as part of
representation of that client in a real estate
transaction.
(3) The only thing of value that is received from the
arrangement other than payments listed in §
1024.14(g) is a return on an ownership interest or
franchise relationship.
(i) In an affiliated business arrangement:
(A) Bona fide dividends, and capital or equity
distributions, related to ownership interest or
franchise relationship, between entities in an
affiliate relationship, are permissible; and
(B) Bona fide business loans, advances, and
capital or equity contributions between entities
in an affiliate relationship (in any direction), are
not prohibited—so long as they are for ordinary
business purposes and are not fees for the
referral of settlement service business or
unearned fees.
(ii) A return on an ownership interest does not
include:
(A) Any payment which has as a basis of
calculation no apparent business motive other

80a
than distinguishing among recipients of
payments on the basis of the amount of their
actual, estimated or anticipated referrals;
(B) Any payment which varies according to the
relative amount of referrals by the different
recipients of similar payments; or
(C) A payment based on an ownership,
partnership or joint venture share which has
been adjusted on the basis of previous relative
referrals by recipients of similar payments.
(iii) Neither the mere labeling of a thing of value,
nor the fact that it may be calculated pursuant to a
corporate or partnership organizational document
or a franchise agreement, will determine whether it
is a bona fide return on an ownership interest or
franchise relationship. Whether a thing of value is
such a return will be determined by analyzing facts
and circumstances on a case by case basis.
(iv) A return on franchise relationship may be a
payment to or from a franchisee but it does not
include any payment which is not based on the
franchise agreement, nor any payment which varies
according to the number or amount of referrals by
the franchisor or franchisee or which is based on a
franchise agreement which has been adjusted on the
basis of a previous number or amount of referrals by
the franchiser or franchisees. A franchise agreement
may not be constructed to insulate against
kickbacks or referral fees.
(c) Definitions. As used in this section:
Associate is defined in section 3(8) of RESPA (12
U.S.C. 2602(8)).
Affiliate relationship means the relationship among
business entities where one entity has effective control
over the other by virtue of a partnership or other

81a
agreement or is under common control with the other
by a third entity or where an entity is a corporation
related to another corporation as parent to subsidiary
by an identity of stock ownership.
Beneficial ownership means the effective ownership of
an interest in a provider of settlement services or the
right to use and control the ownership interest involved
even though legal ownership or title may be held in
another person’s name.
Control, as used in the definitions of “associate” and
“affiliate relationship,” means that a person:
(i) Is a general partner, officer, director, or employer of
another person;
(ii) Directly or indirectly or acting in concert with
others, or through one or more subsidiaries, owns, holds
with power to vote, or holds proxies representing, more
than 20 percent of the voting interests of another
person;
(iii) Affirmatively influences in any manner the election
of a majority of the directors of another person; or
(iv) Has contributed more than 20 percent of the capital
of the other person.
Direct ownership means the holding of legal title to an
interest in a provider of settlement service except
where title is being held for the beneficial owner.
Franchise is defined in FTC regulation 16 CFR
436.1(h).
Franchisor is defined in FTC regulation 16 CFR
436.1(k).
Franchisee is defined in FTC regulation 16 CFR
436.1(i).
FTC means the Federal Trade Commission.
Person who is in a position to refer settlement service
business means any real estate broker or agent, lender,

82a
mortgage broker, builder or developer, attorney, title
company, title agent, or other person deriving a
significant portion of his or her gross income from
providing settlement services.
(d) Recordkeeping. Any documents provided pursuant
to this section shall be retained for 5 years after the
date of execution.
(e) Appendix B of this part. Illustrations in appendix B
of this part demonstrate some of the requirements of
this section.
MD Code, Business Occupations & Professions, § 17-101
§ 17-101. Definitions
Effective: October 1, 2018
In general
(a) In this title the following words have the meanings
indicated.
Affiliate
(b) “Affiliate” means, unless the context requires
otherwise, to establish between an individual and a real
estate broker an employment or other contractual
relationship under which the individual is authorized to
provide real estate brokerage services on behalf of the
real estate broker.
Associate real estate broker
(c) “Associate real estate broker” means an individual:
(1) who meets the requirements for a real estate
broker license under § 17-305 of this title but who

83a
applies for and is granted an associate real estate
broker license under §§ 17-307 and 17-309 of this title;
and
(2) who, under the associate real estate broker
license, may provide real estate brokerage services on
behalf of a licensed real estate broker with whom the
associate real estate broker is affiliated.
Commission
(d) “Commission” means the State Real Estate
Commission.
Guaranty Fund
(e) “Guaranty Fund” means a real estate guaranty fund
established by the Commission under § 17-402 of this
title.
Hearing board
(f) “Hearing board” means a real estate hearing board
appointed by the Commission under § 17-325 of this
title.
License
(g)(1) “License” means, unless the context requires
otherwise, a license issued by the Commission.
(2) “License” includes, unless the context requires
otherwise:
(i) a real estate broker license;
(ii) an associate real estate broker license; and
(iii) a real estate salesperson license.

84a
L icensed associate real estate broker
(h) “Licensed associate real estate broker” means,
unless the context requires otherwise, an associate real
estate broker who is licensed by the Commission to
provide real estate brokerage services on behalf of a
licensed real estate broker with whom the associate
real estate broker is affiliated.
Licensed real estate broker
(i) “Licensed real estate broker” means, unless the
context requires otherwise, a real estate broker who is
licensed by the Commission to provide real estate
brokerage services.
Licensed real estate salesperson
(j) “Licensed real estate salesperson” means, unless the
context requires otherwise, a real estate salesperson
who is licensed by the Commission to provide real
estate brokerage services on behalf of a licensed real
estate broker with whom the real estate salesperson is
affiliated.
Licensee
(k) “Licensee” means a licensed real estate broker, a
licensed associate real estate broker, or a licensed real
estate salesperson.
Provide real estate brokerage services
(l) “Provide real estate brokerage services” means to
engage in any of the following activities:
(1) for consideration, providing any of the following

85a
services for another person:
(i) selling, buying, exchanging, or leasing any real
estate; or
(ii) collecting rent for the use of any real estate;
(2) for consideration, assisting another person to
locate or obtain for purchase or lease any residential
real estate;
(3) engaging regularly in a business of dealing in real
estate or leases or options on real estate;
(4) engaging in a business the primary purpose of
which is promoting the sale of real estate through a
listing in a publication issued primarily for the
promotion of real estate sales;
(5) engaging in a business that subdivides land that is
located in any state and sells the divided lots; or
(6) for consideration, serving as a consultant
regarding any activity set forth in items (1) through
(5) of this subsection.
Real estate
(m)(1) “Real estate” means any interest in real property
that is located in this State or elsewhere.
(2) “Real estate” includes:
(i) an interest in a condominium; and
(ii) a time-share estate or a time-share license, as
those terms are defined in § 11A-101 of the Real
Property Article.
Real estate broker
(n) “Real estate broker” means an individual who
provides real estate brokerage services.
Real estate salesperson

86a
(o) “Real estate salesperson” means an individual who,
while affiliated with and acting on behalf of a real estate
broker, provides real estate brokerage services.
MD Code, Insurance, § 11-401
§ 11-401. Application of subtitle
Kinds and classes of insurance subject to subtitle
(a) This subtitle applies to all kinds and classes of
insurance that:
(1) insure or guarantee titles to real or leasehold
property or an estate in real or leasehold property;
(2) insure or guarantee against loss by reason of
defects, encumbrances, liens, or charges on real or
leasehold property or an estate in real or leasehold
property;
(3) insure or guarantee the validity, priority, and
status of liens on real or leasehold property or an
estate in real or leasehold property; or
(4) insure or guarantee the correctness and
sufficiency of searches for instruments, liens, charges,
or other matters affecting the title to real or leasehold
property or an estate in real or leasehold property.
Persons subject to subtitle
(b) This subtitle applies to a person that makes
guarantees or issues insurance described in subsection
(a) of this section.
MD Code, Insurance, § 11-403
§ 11-403. Rate filings
Effective: October 1, 2017
In general

87a
(a)(1) Except as otherwise provided in this subsection,
each title insurer shall file with the Commissioner all
rates or premiums, supplementary rate information,
forms of contracts, policies, or guarantees of insurance,
and all modifications of contracts, policies, or
guarantees of insurance that it proposes to use.
(2) A filing is not required for rates or premiums for a
special or unusual guarantee as described in § 11402(e)(2) of this subtitle.
Indication of character or extent of coverage
contemplated
(b) Each filing shall indicate the character or extent of
coverage contemplated under the rates and premiums
for which it is made.
Filing and approval required for changes in rates,
premiums, or in forms of contracts
(c) A title insurer may not make a change in rates or
premiums or in the forms of contracts, policies, or
guarantees of insurance unless a report that indicates
the change has been filed with and approved by the
Commissioner.
Obligation for filings fulfilled by licensed title rating
organization
(d) A title insurer may satisfy its obligation to make
filings by:
(1) being a member of or a subscriber to a licensed
title rating organization that makes filings; and
(2) authorizing the Commissioner to accept filings on
its behalf from the title rating organization.

88a
MD Code, Insurance, § 11-404
§ 11-404. Approval or disapproval of filings by
Commissioner
Effective: October 1, 2017
In general
(a)(1) Unless the Commissioner finds that a filing does
not meet the requirements of this subtitle or is
otherwise contrary to law, the Commissioner shall
approve the filing.
(2) As soon as reasonably possible after a filing is
made, the Commissioner shall approve or disapprove
the filing in writing.
(3) If the Commissioner disapproves a filing, the
Commissioner shall specify the ways that the
Commissioner finds that the filing fails to meet the
requirements of this subtitle or is otherwise contrary
to law.
Filings deemed approved if not disapproved by
Commissioner
(b)(1) This subsection does not apply to filings by a
rating organization on behalf of title insurers that are
members or subscribers of the rating organization.
(2) If a filing is not disapproved by the Commissioner
within 15 days after the date of filing, or within 30
days after the date of filing if the Commissioner
extends the waiting period in writing during the
initial 15-day period, the filing is deemed approved
and the effective date of the filing is the end of the 15day or 30-day waiting period.
Hearing to review approval or disapproval of filing
(c)(1) The Commissioner shall hold a hearing to review

89a
the approval or disapproval of a filing under this section
if:
(i) after approval of the filing, the Commissioner
finds that the filing does not meet the requirements
of this subtitle or is otherwise contrary to law;
(ii) a person with an interest in the filing makes a
complaint to the Commissioner in writing that sets
forth specific and reasonable causes for complaint;
or
(iii) a title insurer or a rating organization on behalf
of its members or subscribers, on notice of
disapproval by the Commissioner under this
section, requests a hearing.
(2) A hearing under this subsection shall be held
within 30 days after the occurrence of an action
specified in paragraph (1) of this subsection.
(3) The Commissioner shall give written notice of the
hearing to all interested parties.
(4) The Commissioner may confirm, modify, change,
or rescind any previous action, if warranted by the
facts shown at the hearing.
MD Code, Insurance, § 11-407
§ 11-407. Contracts, policies, or guarantees of
insurance outside of filing requirements prohibited
In general
(a) A title insurer may not make or issue a contract,
policy, or guarantee of insurance except in accordance
with filings approved as provided in this subtitle,
except for special or unusual risks for which a filing has
not yet been provided.
Rates or premiums approved by Commissioner

90a
(b) Each title insurer must hold to the rates or
premiums as approved by the Commissioner and may
not deviate from the rates or premiums or allow to or
for the account of an insured a rebate or discount on the
rates or premiums payable.
Commissions to licensed insurance producers
(c) A title insurer may pay or allow a commission to a
licensed insurance producer of the title insurer as
compensation for procuring business.

